APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the Virginia Court of Appeals,
Wolfe v. Virginia, No. 2081-16-14
(Sept. 20, 2019) ............................................ App-1
Appendix B
Order of the Virginia Court of Appeals
Denying Petition for Appeal, Wolfe v.
Virginia, No. 2081-16-14 (Dec. 9, 2019).... App-20
Appendix C
Order of the Supreme Court of Virginia
Denying Petition for Appeal, Wolfe v.
Virginia, No. 200205 (Sept. 3, 2020)......... App-22
Appendix D
Opinion of the Virginia Court of Appeals,
Wolfe v. Virginia, No. 2081-16-14
(May 10, 2017) ........................................... App-24
Order of the Supreme Court of Virginia
Denying Petition for Appeal, Wolfe v.
Virginia, No. 170780 (Feb. 5, 2018) .......... App-32
Order of the Supreme Court of Virginia
Denying Petition for Appeal, Wolfe v.
Virginia, No. 170780 (Mar. 23, 2018) ....... App-34
Appendix E
Motion to Dismiss Indictments
Constituting a Vindictive Prosecution,
Circuit Court of Prince William County,
Virginia, Virginia v. Wolfe,
Nos. CR12003732-00, CR12003737-00
(Nov. 28, 2012) ........................................... App-35

ii
Appendix F
Transcript Excerpt of Hearing on Motion
to Dismiss Indictments Constituting a
Vindictive Prosecution, Circuit Court of
Prince William County, Virginia,
Virginia v. Wolfe, Nos. 05050489, et al.
(Dec. 11, 2012) ........................................... App-53
Appendix G
Motion to Reconsider JW-2012031 to
Dismiss Indictments Constituting a
Vindictive Prosecution, Circuit Court of
Prince William County, Virginia,
Virginia v. Wolfe, Nos. CR12003732-00,
et al. (Oct. 23, 2014)................................... App-97
Appendix H
Executed Plea Agreement Form
(Mar. 22, 2016)......................................... App-109
Appendix I
Va. Sup. Ct. R. 5A:18............................. App-114

App-1
Appendix A
COURT OF APPEALS OF VIRGINIA
________________
Record No. 2081-16-4
From the Circuit Court of Prince William County,
Nos. CR05050490-01, CR05050703-01
and CR12003736-00
________________
JUSTIN MICHAEL WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
September 20, 2019
________________
OPINION
Per Curiam 1
This case returns to our Court upon remand from
the Supreme Court of Virginia following a remand
from the Supreme Court of the United States for us to
reconsider our earlier decision in light of Class v.
United States, 138 S. Ct. 798 (2018). We directed the
parties to submit supplemental briefing on the effect
of Class in this case. Upon consideration of the case in
light of Class and the parties’ supplemental briefing,
the petition for appeal has been reviewed by a judge of
1 The Honorable Mary Grace O’Brien took no part in the
consideration of this petition for appeal.

App-2
this Court, to whom it was referred pursuant to Code
§ 17.1-407(c), and is denied.
Appellant originally was indicted for and
convicted in 2002 of capital murder for hire, use of a
firearm in the commission of murder, and conspiracy
to distribute marijuana. Wolfe v. Commonwealth, 265
Va. 193, 198 (2003). He was sentenced to death for the
murder and thirty-three years’ imprisonment for the
remaining offenses. Id. In 2012, the United States
Court of Appeals for the Fourth Circuit affirmed an
award of federal habeas corpus relief because the
Commonwealth had not met its obligations under
Brady v. Maryland, 373 U.S. 83 (1963), and noted that
“the Commonwealth [was] free to retry [appellant] on
the murder, firearm, and drug conspiracy charges.”
Wolfe v. Clarke, 691 F.3d 410, 426 (4th Cir. 2012).
Following the grant of federal habeas corpus
relief, the trial court appointed a special prosecutor, 2
who secured six additional indictments against
appellant, 3 charging: capital murder in aid of a
continuing criminal enterprise, use of a firearm in the
commission of murder, two counts of acting as a
principal of a continuing criminal enterprise, felony
murder in the course of robbery, and use of a firearm
in the commission of robbery. Appellant moved to
Appellant moved to disqualify the special prosecutor or vacate
his appointment. Following a hearing on the record, the trial
court denied both motions by orders entered on November 5,
2012.
2

3 Appellant argues that the special prosecutor “reindicted” him
on the three original charges. However, the record does not
support that contention; the record demonstrates that the
Commonwealth proceeded on the three original indictments.

App-3
dismiss those indictments, arguing that they had been
“vindictively brought against [him] in retaliation for
the exercise of his constitutional rights to petition for
and receive federal habeas corpus relief.” Appellant
alleged that the 2012 indictments violated his due
process rights because they increased the number of
charges and the potential quantum of punishment. He
argued that he could not be tried on new charges that
arose out of the same facts that existed when he
originally was indicted.
At the hearing on the motion on December 11,
2012, the Commonwealth argued4 that the issue
before the court was whether there was a presumption
of vindictiveness under the circumstances; it asked for
a separate evidentiary hearing if the trial court found
that the presumption had been satisfied and the
burden had shifted to the Commonwealth to show that
there was not actual vindictiveness. Appellant’s
counsel presented testimony that the original
indictments against him charged three offenses and
that the special prosecutor brought six additional
charges. There had been no additional investigation of
the case between appellant’s 2002 trial and the federal
court’s remand order. The Commonwealth presented
testimony that the special prosecutor had no
involvement in the original prosecution.
Appellant argued that considering the posture of
the case, bringing the new charges raised the
presumption of vindictiveness. Appellant asserted
that the federal court rulings meant that it would be
4 The record suggests that the Commonwealth filed a written
response, but it is not part of the record on appeal.

App-4
“difficult, if not impossible” for the Commonwealth to
present a successful case on the original charges.
Appellant stated that he was not arguing that the
special prosecutors “are actually vindictive,” only that
bringing
additional
charges
with
“harsher”
punishments
implicated
a
presumption
of
vindictiveness. He noted that the same sovereign was
pursuing the prosecution, so it did not matter that a
special prosecutor had been appointed. Appellant
asked the trial court to find a presumption of
vindictiveness and to rule that “the Commonwealth
have the burden of moving forward.”
The Commonwealth argued that there was no
presumption of vindictiveness in this case. It noted
appellant’s efforts to have the special prosecutor
removed because, appellant had asserted, the special
prosecutor would not exercise his independent
judgment in prosecuting the case. The Commonwealth
argued that the new charges reflected the special
prosecutor’s exercise of his independent judgment in
this case and “that’s the only thing the record
supports.” The Commonwealth also argued that, on
their face, the new charges were not “more severe”
than the original charges because appellant
previously had faced a sentence of death. Thus, there
was no additional sentencing exposure.
After considering the evidence and argument, the
trial court denied appellant’s motion. 5 The trial court
noted that Blackledge v. Perry, 417 U.S. 21, 30 (1974),
and Barrett v. Commonwealth, 41 Va. App. 377, 393
5 The trial court entered an order memorializing its ruling on
September 24, 2014.

App-5
(2003), were helpful in addressing appellant’s claim.
Considering all the circumstances, the trial court held
that there had not been a prima facie showing of
prosecutorial vindictiveness. The trial court found
that it was not appropriate to analyze the apparent
strength of the Commonwealth’s case; instead it
looked to the charges. The trial court found that
although the Commonwealth had brought additional
charges, it had not brought enhanced charges. The
trial court found that, under the circumstances,
appellant had not satisfied “the prosecutorial
vindictiveness threshold showing which would require
the Commonwealth to rebut that presumption.”
Appellant then stated that he wished to present
evidence to establish actual vindictiveness, and the
trial court set the matter for a hearing on that
evidence for December 18, 2012. At the December 18,
2012 hearing, however, appellant advised the trial
court that he would rest on his brief and would refile
the motion if he felt it was appropriate to do so.
In October 2014, appellant filed a motion for
reconsideration of his motion to dismiss the 2012
indictments based on prosecutorial vindictiveness.
Appellant argued in his motion for reconsideration
that he had established a prima facie case of vindictive
prosecution, which violated his due process rights. He
asserted that the Commonwealth was obliged to
“articulate a legitimate reason” for bringing the new
indictments “after a successful appeal.” Appellant
asserted that the trial court had not applied the
correct legal standard and that, under the
circumstances, the burden was on the Commonwealth
to justify the new charges. Appellant argued for the
first time that the presumption of vindictiveness

App-6
applied because the new charges raised the minimum
quantum of punishment he would face upon
conviction.
The Commonwealth filed a written response,
arguing that neither the special prosecutor nor his
staff “had any involvement in [appellant’s] previous
trial or appeals.” “After independent review of the
case, the [s]pecial [p]rosecutor presented the case” to
a grand jury, which issued the challenged indictments.
The Commonwealth argued that the special
prosecutor had “independently formulated his own
theories of [appellant’s] guilt based on the
investigation and evidence.” According to the
Commonwealth, appellant had not established
vindictiveness because any animus on behalf of the
original prosecutors could not be imputed to the
special prosecutor. The Commonwealth further
argued that there was not a presumption of
vindictiveness solely based on indictment of additional
charges because the new charges did not increase the
minimum sentencing exposure that applied for the
original charges because the minimum sentence for
capital murder is imprisonment for life. See Code
§§ 18.2-10(a) and 18.2-31.
The motion to reconsider was set for a hearing on
December 17, 2014; however, at the hearing, appellant
stated that he wished to defer argument on the
motion. The trial court granted appellant’s request to
defer consideration of the motion to reconsider.
Although there were several subsequent hearings,
appellant never reset the matter for argument.
On March 22, and March 24, 2016, appellant
executed written plea agreements with the

App-7
Commonwealth. Under the agreements, appellant
agreed to plead guilty to: first-degree murder (2012
indictment), use of a firearm in the commission of a
felony (2005 indictment), and conspiracy to distribute
more than five pounds of marijuana (2005
indictment). Appellant also submitted a four-page
written statement outlining his role in the murder. In
exchange for appellant’s guilty pleas, the
Commonwealth agreed to nolle prosequi the
remaining charges. The parties also agreed that
appellant’s active sentence would be “not less than 29
years nor more than 41 years for all the charges to
which [appellant was] pleading guilty.”
The trial court conducted a careful colloquy with
appellant and appellant’s counsel, and considered the
Commonwealth’s proffer of evidence. The trial court
also separately inquired regarding appellant’s waiver
of his right to a jury trial. The trial court found that
appellant’s guilty pleas and jury waiver were
“voluntarily and intelligently” made and that
appellant understood the nature and consequences of
the charges. The trial court then accepted the plea
agreements, convicted appellant of the three charges,
and granted the Commonwealth’s motion to nolle
prosequi the remaining charges. Appellant entered his
guilty pleas without securing a ruling from the trial
court on his argument that the presumption of
vindictiveness applied because the new charges
increased the minimum punishment he faced.
At the subsequent sentencing hearing, consistent
with the terms of the written plea agreements, the
trial court sentenced appellant to eighty-three years’
imprisonment with forty-two years suspended by final

App-8
order entered August 4, 2016. As one of the conditions
of appellant’s suspended sentence, the trial court
ordered him to pay court costs of $870,277.11.
Appellant appealed to this Court; he presented
three assignments of error:
I.

The circuit court erred when it accepted
[appellant’s] guilty plea as voluntary
where [he] was the target of vindictive
prosecution that subjected [him] to
increased
mandatory
minimum
sentences after successful post-conviction
proceedings.

II. The circuit court erred when it accepted
[appellant’s] guilty plea as voluntary
when [his] guilty plea was the product of
prosecutorial misconduct that deprived
[him] of exculpatory evidence in the form
of Owen Barber’s testimony.
III. The circuit court erred when it ordered
[appellant] to pay the costs of his
prosecution because it was the
Commonwealth’s actions, and not
[appellant’s], that necessitated the retrial of his charges.
By order entered May 10, 2017, this Court denied
appellant’s petition for appeal. We found that
appellant had defaulted his challenges to the
voluntariness of his guilty pleas under Rule 5A:18
because the record established that his pleas were
knowing and voluntary. See Order of May 10, 2017.
We rejected appellant’s challenge to the assessment of
court costs because we determined that the
assessment was statutorily authorized. See id. The

App-9
Supreme Court of Virginia refused appellant’s further
petition for appeal. See Wolfe v. Commonwealth,
Record No. 170780 (Feb. 5, 2018).
On February 21, 2018, the Supreme Court of the
United States rendered its decision in Class. In Class
the Supreme Court held a guilty plea, standing alone,
does not bar a defendant “from challenging the
constitutionality of the statute of conviction on direct
appeal.” 138 S. Ct. at 803. A federal grand jury
indicted Class “for possessing firearms in his locked
jeep, which was parked in a lot on the grounds of the
United States Capitol in Washington, D.C. See 40
U.S.C. § 5104(e)(1) (‘An individual . . . may not carry
. . . on the Grounds or in any of the Capitol Buildings
a firearm’).” Id. at 802. Class moved to dismiss the
indictment, alleging “that the statute, § 5104(e),
violate[d] the Second Amendment” and the Due
Process Clause because it did not provide adequate
notice of the proscribed conduct. Id. The district court
denied both motions after a hearing. Id. Class
subsequently pleaded guilty to “Possession of a
Firearm on U.S. Capitol Grounds,” in exchange for
which the government dropped related charges. Id.
Although there was a detailed written plea
agreement between Class and the government, the
agreement “said nothing about the right to raise on
direct appeal a claim that the statute of conviction was
unconstitutional.” Id. The district court accepted
Class’s plea, convicted him of the offense, and
sentenced him to twenty-four days’ imprisonment and
twelve months of supervised release. Id. Class then
appealed his conviction, again claiming that “the
statute violate[d] the Second Amendment and the Due

App-10
Process Clause because it fails to give fair notice of
which areas fall within the Capitol Grounds where
firearms are banned.” Id. The Court of Appeals for the
District of Columbia Circuit “held that Class could not
raise his constitutional claims because, by pleading
guilty, he had waived them.” Id. at 802-03. The
Supreme Court reversed, holding that “a plea of guilty
to a charge does not waive a claim that—judged on its
face—the charge is one which the State may not
constitutionally prosecute.” Id. at 803-04 (quoting
Menna v. New York, 423 U.S. 61, 63 & n.2 (1975)). The
Supreme Court explained that “a guilty plea by itself”
does not bar claims that: challenge the constitutional
validity of the statute of conviction, assert
prosecutorial vindictiveness, or allege a double
jeopardy violation because those types of claims “call
into
question the Government’s power to
‘constitutionally prosecute’” a defendant. Id. at 805
(quoting United States v. Broce, 488 U.S. 563, 575
(1989)).
After the Supreme Court of Virginia refused
appellant’s appeal, he sought certiorari in the
Supreme Court of the United States. The question
appellant presented to the Supreme Court of the
United States was: “[w]hether, in light of Class, a
guilty plea in state court waives the right to raise on
appeal the constitutional authority of the State to
prosecute based on a claim of vindictive prosecution.”
Wolfe v. Virginia, 2018 WL 4035534, at *i (U.S.). On
January 7, 2019, the Supreme Court granted
appellant’s petition for a writ of certiorari. The
Supreme Court’s order states:

App-11
On petition for writ of certiorari to the
Supreme Court of Virginia. Petition for writ
of certiorari granted. Judgment vacated, and
case remanded to the Supreme Court of
Virginia for further consideration in light of
Class v. United States, 583 U.S. ___, 138 S.
Ct. 798 (2018).
Wolfe v. Virginia, 139 S. Ct. 790 (2019). By order of
February 15, 2019, the Supreme Court of Virginia
remanded the case to this Court “to reconsider its
decision of May 10, 2017.” As noted above, we directed
the parties to provide supplemental briefing. The
supplemental briefs address only the vindictive
prosecution claim. We turn to that claim now.
I. Appellant argues that the trial court erred in
accepting his guilty pleas because he “was the target
of vindictive prosecution that subjected [him] to
increased mandatory minimum punishments after
successful post-conviction proceedings.” 6 In his
supplemental petition for appeal, appellant argues
that the United States Supreme Court’s remand
requires us to grant his petition and consider his claim
on the merits. We disagree.
Citing Supreme Court precedent, we have
recognized that imposing “a penalty upon the
defendant for having successfully pursued a statutory
right of appeal or collateral remedy” violates due
“Only assignments of error assigned in the petition for appeal
will be noticed by this Court.” Rule 5A:12(c)(1)(i); see also
Maldonado v. Commonwealth, 70 Va. App. 554 (2019) (applying
Rule 5A:12(c)(1)(i) to limit issues considered on appeal).
Cf. Sarafin v. Commonwealth, 288 Va. 320, 323 (2014) (applying
corresponding Rule 5:17(c) to limit issues considered on appeal).
6

App-12
process of law. Barrett, 41 Va. App. at 393. And that
we must “reverse a conviction that is the result of a
vindictive prosecution where the facts show an actual
vindictiveness or a sufficient likelihood of
vindictiveness to warrant such a presumption.” Id. at
396 (quoting United States v. Lanoue, 137 F.3d 656,
664 (1st Cir. 1998)). But here, unlike the defendant in
Class, appellant presents a claim that the trial court
never addressed: that the presumption of
vindictiveness arose because the new charges the
special prosecutor brought increased the minimum
punishment to which he could have been subjected
upon conviction.
“No ruling of the trial court . . . will be considered
as a basis for reversal unless an objection was stated
with reasonable certainty at the time of the ruling,
except for good cause shown or to enable the Court of
Appeals to attain the ends of justice.” Rule 5A:18.
“[W]e have repeatedly held that even constitutional
claims can be barred by Rule 5A:18.” Le v.
Commonwealth, 65 Va. App. 66, 75 (2015) (rejecting
due process challenge to sufficiency of evidence). “The
purpose
of
this
contemporaneous
objection
requirement is to allow the trial court a fair
opportunity to resolve the issue at trial, thereby
preventing unnecessary appeals and retrials.”
Creamer v. Commonwealth, 64 Va. App. 185, 195
(2015). Virginia’s ‘[p]rocedural-default principles
require that the argument asserted on appeal be the
same as the contemporaneous argument” presented to
the trial court. Bethea v. Commonwealth, ___ Va. ___ ,
___ (Aug. 28, 2019). “[A]n appellate court may not
reverse a judgment of the trial court based upon an
alleged error in a decision that was not made or upon

App-13
an issue that was not presented.” McDonald v.
Commonwealth, 274 Va. 249, 255 (2007); see also
Floyd v. Commonwealth, 219 Va. 575, 584 (1978)
(holding that appellate courts will not consider an
argument that differs from the specific argument
presented to the trial court even if it relates to the
same general issue).
Consequently, the Supreme Court of Virginia has
declined to consider a “claim of facial invalidity of
Code § 18.2-361(A)” because the claim was never
presented to the trial court. McDonald, 274 Va. at 255.
Similarly, we have refused to consider a double
jeopardy claim because “the trial court was never
asked to rule on the issue of double jeopardy.” West v.
Commonwealth, 43 Va. App. 327, 340 (2004).
Cf. Teleguz v. Commonwealth, 273 Va. 458, 471 (2007)
(declining to consider a claim that the trial court in a
capital case erred in not granting a continuance to
investigate new information because the trial court
“never ruled on the continuance request, and Teleguz
did not seek a ruling on his motion for a continuance”),
cert. denied, 552 U.S. 1191 (2008); Lenz v.
Commonwealth, 261 Va. 451, 463 (holding in a capital
case that challenge concerning motion to poll jurors
regarding which aggravating factor each had found
was waived because defendant failed to request a
ruling from the trial court), cert. denied, 534 U.S. 1003
(2001); Hoke v. Commonwealth, 237 Va. 303, 306
(holding in a capital case that claim challenging denial
of motion for a change of venue because defendant did
not renew his motion after acquiescing in attempt to
seat a jury), cert. denied, 491 U.S. 910 (1989). Upon
review of these precedents, we conclude that the

App-14
waiver under Rule 5A:18 is more expansive than the
waiver occasioned by a defendant’s guilty plea.
Appellant did not ask the trial court to rule on his
motion to reconsider the prosecutorial vindictiveness
claim arguing that the correct analysis focused on the
greater minimum sentence he would face. Under these
circumstances, Rule 5A:18 bars our consideration of
appellant’s prosecutorial vindictiveness claim.
Although there are exceptions to Rule 5A:18,
appellant has not invoked them, notwithstanding our
prior ruling applying Rule 5A:18 and the
Commonwealth’s express reliance on the Rule in its
supplemental briefing. 7 This Court does not apply the
exceptions to Rule 5A:18 sua sponte. Edwards v.
Commonwealth, 41 Va. App. 752, 761 (2003) (en banc).
Accordingly, Rule 5A:18 bars our consideration of this
assignment of error on appeal.
In sum, we hold that appellant may present his
claim to this Court notwithstanding his guilty plea.
See Garza v. Idaho, 139 S. Ct. 738 (2019); Trevathan
v. Commonwealth, ___ Va. ___ (Aug. 23, 2019); Miles
v. Sheriff of Va. Beach City Jail, 266 Va. 110, 116
(2003). We further hold that appellant’s guilty plea,
standing alone, does not waive his right to present a
claim of prosecutorial vindictiveness on appeal. Class,
138 S. Ct. at 804-05. Finally, we hold that although
appellant may present his claim, Rule 5A:18 bars our
consideration of the claim because the trial court did
not rule on the claim appellant presents on appeal.
McDonald, 274 Va. at 255; West, 43 Va. App. at 340.
7 We granted appellant leave to file a reply brief. See Order of
March 7, 2019.

App-15
See also United States v. Rios-Rivera, 913 F.3d 38, 42
(1st Cir.) (holding that “even after Class,” appellant’s
decision not to press arguments challenging the
constitutionality of the prosecution before the district
court “effects a forfeiture” of the claim), cert. denied,
139 S. Ct. 2647 (2019).
II. To the extent the remand order contemplated
that we reconsider appellant’s second assignment of
error, we find that under Class, appellant’s guilty plea
waived his claim of prosecutorial misconduct.
Following the federal court remand, appellant
also moved to dismiss the indictments “for
prosecutorial misconduct.” He argued that no remedy
short of dismissal could cure the constitutional
violations that underpinned the habeas corpus relief
the federal court had granted and that the original
trial prosecutors had tampered with a key witness
before recusing themselves. Appellant contended that
the witness’ (Owen Barber) invocation of his Fifth
Amendment privilege prejudiced his defense. The trial
court denied the motion in a letter opinion of
November 4, 2013. The trial court found that
appellant had not met his burden of showing that
Barber’s invocation of his Fifth Amendment rights
was due to prosecutorial misconduct, considering the
many varying statements, “many diametrically
opposed to each other,” he had given and that
attorneys and investigators representing both
appellant and the Commonwealth had visited Barber
while he was incarcerated. The trial court further
found that given the many statements, it was
“uncertain which testimony” Barber would offer if he
did testify. Thus, appellant had not established that

App-16
Barber’s testimony “would have been favorable to his
case.”
In his original petition, appellant argued that the
(original) prosecutor’s asserted misconduct “had an
effect on” his decision to plead guilty because “it
deprived him of the sole witness who could contradict
the government’s allegations.” Class, however,
reaffirmed “that a guilty plea bars appeal of many
claims, including some “‘antecedent constitutional
violations’” related to events . . . that had ‘“occurred
prior to the entry of the guilty plea.”’” 138 S. Ct. at 803
(quoting Blackledge, 417 U.S. at 30). “When a criminal
defendant has solemnly admitted in open court that
he is in fact guilty of the offense with which he is
charged, he may not thereafter raise independent
claims relating to the deprivation of constitutional
rights that occurred prior to the entry of the guilty
plea.” Tollett v. Henderson, 411 U.S. 258, 267 (1973).
Thus,
a
guilty plea
renders
“case-related
constitutional defects,” like the one asserted here,
“irrelevant” “[b]ecause the defendant has admitted the
charges against him.” Class, 138 S. Ct. at 804-05
(quoting first Blackledge, 417 U.S. at 30, and then
quoting Haring v. Prosise, 462 U.S. 306, 321 (1983)).
Appellant’s Brady claim was available to him
before he entered his guilty pleas and it is within the
class of errors that could be cured by a new trial, as
the Fourth Circuit recognized in appellant’s federal
case. “Put succinctly, the constitutional claims for
which [appellant] was awarded habeas corpus relief
are readily capable of being remedied in a new trial.”
Wolfe v. Clarke, 718 F.3d 277, 290 (4th Cir. 2013).
Accordingly, we find that to the extent this claim was

App-17
not abandoned in the Supreme Court of the United
States, it was waived by appellant’s guilty plea.
Tollett, 411 U.S. at 267.
III. To the extent that the remand order
contemplated that we reconsider appellant’s third
assignment of error, we find no abuse of discretion in
the trial court’s judgment.
In his original petition for appeal, appellant
argued that the trial court “erred when it ordered
[him] to pay nearly $900,000 in costs as a special
condition of his suspended sentence because [his] retrial was necessitated by prosecutorial misconduct,
the costs were driven up by the Commonwealth’s
vindictive charging decision . . . , and it is punitive to
hang the specter of 43 years in jail over [him] if he
cannot pay” the costs within the time the trial court
set.
As we found previously, under Code § 19.2-336
“[i]n every criminal case the clerk of the circuit court
in which the accused is found guilty . . . shall . . . make
up a statement of all the expenses incident to the
prosecution, . . . and execution for the amount of such
expenses shall be issued and proceeded with.”
Moreover, “[i]f a defendant is placed on probation, or
imposition or execution of sentence is suspended, or
both, the court may make payment of any fine, or
costs, or fine and costs, either on a certain date or on
an installment basis, a condition of probation or
suspension of sentence.” Code § 19.2-356
“The statutory grant of power to the trial court to
order payment of fines, forfeitures, penalties,
restitution and costs in deferred payments or
installments according to the defendant’s ability to

App-18
pay implies that the trial judge will act with sound
judicial discretion.” Ohree v. Commonwealth, 26 Va.
App. 299, 311 (1998). Additionally, if the defendant
later “defaults in payment and is ordered to show
cause pursuant to Code § 19.2-358, he or she has the
opportunity to present evidence concerning his or her
ability to pay and obtain either temporary or
permanent relief from the obligation to pay costs.” Id.
In this manner, “Virginia’s statutory scheme works to
enforce the duty of paying costs ‘only against those
who actually become able to meet [the responsibility]
without hardship.’” Id. (alteration in original) (quoting
Fuller v. Oregon, 417 U.S. 40, 54 (1974)).
“Criminal sentencing decisions are among the
most difficult judgment calls trial judges face.” Du v.
Commonwealth, 292 Va. 555, 563 (2016). “Because
this task is so difficult, it must rest heavily on judges
closest to the facts of the case—those hearing and
seeing the witnesses, taking into account their verbal
and nonverbal communication, and placing all of it in
the context of the entire case.” Id. Upon review of the
record in this case, we find no abuse of discretion in
the trial court’s sentence.
For the reasons stated above, the petition for
appeal is denied.
This order is final for purposes of appeal unless,
within fourteen days from the date of this order, there
are further proceedings pursuant to Code § 17.1407(D) and Rule 5A:15(a) or 5A:15A(a), as
appropriate. If appellant files a demand for
consideration by a three-judge panel, pursuant to
those rules the demand shall include a statement
identifying how this order is in error.

App-19
The trial court shall allow Meredith M. Ralls,
Esquire, court-appointed counsel for the appellant,
the fee set forth below and also counsel’s necessary
direct out-of-pocket expenses. The Commonwealth
shall recover of the appellant the costs in this Court
and in the trial court.
This Court’s records reflect that Meredith M.
Ralls, Esquire, and Marvin D. Miller, Esquire, are
counsel of record for appellant in this matter.
Costs due the Commonwealth by appellant in Court of
Appeals of Virginia:
Attorney’s fee $400.00 plus costs and expenses
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:
Deputy Clerk

App-20
Appendix B
COURT OF APPEALS OF VIRGINIA
________________
Record No. 2081-16-4
From the Circuit Court of Prince William County,
Nos. CR05050490-01, CR05050703-01
and CR12003736-00
________________
JUSTIN MICHAEL WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
December 9, 2019
________________
ORDER
Before Judges Huff, AtLee and Malveaux
For the reasons previously stated in the order
entered by this Court on September 20, 2019, the
petition for appeal in this case hereby is denied.
It is ordered that the trial court allow courtappointed counsel for the appellant an additional fee
of $100 for services rendered the appellant on this
appeal, in addition to counsel’s costs and necessary
direct out-of-pocket expenses. In addition to the costs
incurred in this Court’s September 20, 2019 order, the
Commonwealth shall also recover of the appellant the
costs reflected in this order.

App-21
This order shall be certified to the trial court.
Additional costs due the Commonwealth by appellant
in Court of Appeals of Virginia:
Attorney’s fee $100.00 plus costs and expenses
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:
Deputy Clerk

App-22
Appendix C
SUPREME COURT OF VIRGINIA
________________
Record No. 200205
From the Court of Appeals of Virginia No. 2081-16-4
________________
JUSTIN WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
September 3, 2020
________________
ORDER
Upon review of the record in this case and
consideration of the argument submitted in support of
the granting of an appeal, the Court refuses the
petition for appeal.
The Circuit Court of Prince William County shall
allow Meredith Madden Ralls, Esquire, the fee set
forth below and also counsel’s necessary direct out-ofpocket expenses. And it is ordered that the
Commonwealth recover of the appellant the costs in
this Court and in the courts below.
Costs due the Commonwealth by appellant in
Supreme Court of Virginia:
Attorney’s fee $950.00 plus costs and expenses

App-23
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

s/
Deputy Clerk

App-24
Appendix D
COURT OF APPEALS OF VIRGINIA
________________
Record No. 2081-16-4
From the Circuit Court of Prince William County,
Nos. CR05050490-01, CR05050703-01
and CR12003736-00
________________
JUSTIN MICHAEL WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
September 20, 2019
________________
OPINION
Per Curiam 1
This petition for appeal has been reviewed by a
judge of this Court, to whom it was referred pursuant
to Code § 17.1-407(C), and is denied for the following
reasons:
I. and II. Appellant argues that the trial court
erred when it accepted his guilty pleas as voluntary
because appellant “was the target of vindictive
prosecution that subjected [him] to increased
1 Judge O’Brien took no part in the consideration of this
petition for appeal.

App-25
mandatory minimum sentences after successful postconviction proceedings.” He also argues that the trial
court erred when it accepted his guilty pleas as
voluntary because the pleas were “the product of
prosecutorial misconduct that deprived [him] of
exculpatory evidence in the form of Owen Barber’s
testimony.”
In 2001, a grand jury indicted appellant on
charges of capital murder, use of a firearm in the
commission of a felony, and conspiracy to distribute
marijuana. Appellant was convicted of the charges
and sentenced to death. After numerous appeals in the
state and federal courts, the United States Court of
Appeals for the Fourth Circuit affirmed the district
court’s opinion vacating appellant’s convictions and
ordering the Commonwealth to retry him within 120
days or unconditionally release him from custody.
Wolfe v. Clarke, 691 F.3d 410, 416, 426 (4th Cir. 2012).
Subsequently, the trial court appointed a special
prosecutor. On October 1, 2012, the Commonwealth
obtained indictments against appellant for six
additional charges. The six new charges were capital
murder in aid of a continuing criminal enterprise, use
of a firearm in the commission of murder, two counts
of acting as a principal of a continuing criminal
enterprise, felony murder in the course of committing
robbery, and use of a firearm in the commission of
robbery.
On November 28, 2012, appellant filed a “Motion
to Dismiss Indictments Constituting a Vindictive
Prosecution.” On December 4, 2012, appellant filed a
“Motion to Dismiss Indictments for Prosecutorial
Misconduct.” The trial court denied the motion

App-26
alleging prosecutorial misconduct on November 4,
2013, and the motion alleging vindictive prosecution
on September 24, 2014. 2
On March 22 and 24, 2016, appellant entered into
written plea agreements with the Commonwealth. He
agreed to plead guilty to the following charges: use of
a firearm in the commission of a felony, conspiracy to
distribute marijuana, and murder. The plea
agreements further stated that the parties agreed to a
total sentence of active incarceration of “not less than
29 years and no more than 41 years.”
On March 29, 2016, appellant appeared before the
trial court. The plea agreements were offered to the
trial court, and appellant pled guilty to the three
charges. Appellant did not enter conditional pleas.
The trial court questioned appellant about his guilty
pleas and held that appellant “fully understood the
nature and effect of the pleas, of the penalties that
may be imposed upon conviction, [and] of the waiver
of trial by jury and of the right to appeal.” The trial
court found that appellant’s pleas were voluntary.
After hearing the proffers of evidence, the trial court
found appellant guilty.
On July 20, 2016, appellant appeared before the
trial court for sentencing. After hearing the evidence
and argument, the trial court sentenced appellant to a
total of eighty-three years in prison, with forty-two
years suspended. In addition, the trial court ordered
appellant to pay the court costs, which appellant
2 The trial court denied the motion alleging vindictive
prosecution by order. It denied the motion alleging prosecutorial
misconduct by letter opinion.

App-27
represents totaled $871,247.11. Appellant did not file
any motions to withdraw his guilty pleas.
“In a proceeding free of jurisdictional defects, no
appeal lies from a punishment fixed by law and
imposed upon a defendant who has entered a
voluntary and intelligent plea of guilty.” Allen v.
Commonwealth, 27 Va. App. 726, 729, 501 S.E.2d 441,
442 (1998). “A plea of guilty constitutes a ‘self-supplied
conviction.’” Id. at 730, 501 S.E.2d at 443 (quoting
Peyton v. Commonwealth, 210 Va. 194, 196, 169
S.E.2d 569, 571 (1969)).
For the first time on appeal, appellant argues that
the trial court erred in accepting his guilty pleas as
voluntary. Rule 5A:18 provides, in pertinent part, that
“[n]o ruling of the trial court . . . will be considered as
a basis for reversal unless an objection was stated with
reasonable certainty at the time of the ruling, except
for good cause shown or to enable the Court of Appeals
to attain the ends of justice.” “The purpose of this
contemporaneous objection requirement is to allow
the trial court a fair opportunity to resolve the issue at
trial, thereby preventing unnecessary appeals and
retrials.” Creamer v. Commonwealth, 64 Va. App. 185,
195, 767 S.E.2d 226, 231 (2015).
Although Rule 5A:18 allows exceptions for
good cause or to meet the ends of justice,
appellant does not argue that we should
invoke these exceptions. See e.g., Redman v.
Commonwealth, 25 Va. App. 215, 221, 487
S.E.2d 269, 272 (1997) (“In order to avail
oneself of the exception, a defendant must
affirmatively show that a miscarriage of
justice has occurred, not that a miscarriage

App-28
might have occurred.” (emphasis added)). We
will not consider, sua sponte, a “miscarriage
of justice” argument under Rule 5A:18.
Edwards v. Commonwealth, 41 Va. App. 752, 761, 589
S.E.2d 444, 448 (2003) (en banc), aff’d by unpub’d
order, No. 040019 (Va. Oct. 15, 2004); see Jones v.
Commonwealth, ___ Va. ___, ___ n.5, 795 S.E.2d 705,
710 n.5 (2017).
Moreover, the record does not reflect any reason
to invoke the good cause or ends of justice exceptions
to Rule 5A:18. Appellant presented his motions to
dismiss the indictments based on alleged
prosecutorial vindictiveness and prosecutorial
misconduct prior to entry of his guilty pleas. After the
trial court denied the motions to dismiss, appellant
entered his guilty pleas, which were not conditional.
Rule 3A:8(b)(1) states, “A circuit court shall not
accept a plea of guilty . . . to a felony charge without
first determining that the plea is made voluntarily
with an understanding of the nature of the charge and
the consequences of the plea.” See Allen, 27 Va. App.
at 732-33, 501 S.E.2d at 444. Here, the trial court
engaged in a colloquy with appellant and determined
that his guilty pleas were voluntary. 3 The record
clearly establishes that appellant’s pleas were made
voluntarily, knowingly, and intelligently.

3 The trial court also asked lead counsel for appellant if he was
“satisfied that [appellant’s] pleas of guilty [were] knowingly,
intelligently and understandably made,” and counsel replied,
“Yes, Your Honor.” Counsel also agreed that appellant
understood “the nature and consequences” of the pleas.

App-29
Accordingly, we decline to consider the first and
second assignments of error for the first time on
appeal. See id.
III. Appellant argues that the trial court erred
when it ordered him “to pay the costs of his
prosecution because it was the Commonwealth’s
actions, and not [appellant’s], that necessitated the retrial of his charges.” He contends the trial court also
erred by ordering him to pay the costs as a special
condition of his suspended sentence.
As a part of his sentence, the trial court ordered
appellant to be responsible for the court costs. The
sentencing order stated, “It is further ordered as [a]
special condition of the defendant’s supervised
probation that the defendant pay the court costs in
accordance with a payment plan to be established by
the Probation Office, which plan must result in any
fines and/or court costs being fully paid during the
probationary period.” Appellant represents that the
clerk’s office determined that the court costs totaled
$871,247.11. 4
Appellant filed a motion to reconsider the
sentence and, as part of the motion, asked the trial
court to remove the special condition that he pay the
court costs during his probationary period. The trial
court denied the motion.
Code § 19.2-336 states, “In every criminal case the
clerk of the circuit court in which the accused is found
guilty . . . shall . . . make up a statement of all the
4 Appellant does not allege that any portion of these costs are
associated with his trial upon the first set of indictments, after
which his original convictions and death sentence were vacated.

App-30
expenses incident to the prosecution, including such
as are certified under § 19.2-335, and execution for the
amount of such expenses shall be issued and
proceeded with.” Code § 19.2-356 states, “If a
defendant is placed on probation, or imposition or
execution of sentence is suspended, or both, the court
may make payment of any fine, or costs, or fine and
costs, either on a certain date or on an installment
basis, a condition of probation or suspension of
sentence.”
“The statutory grant of power to the trial court to
order payment of fines, forfeitures, penalties,
restitution and costs in deferred payments or
installments according to the defendant’s ability to
pay implies that the trial judge will act with sound
judicial discretion.” Ohree v. Commonwealth, 26 Va.
App. 299, 311, 494 S.E.2d 484, 490 (1998).
Additionally, if the defendant later “defaults in
payment and is ordered to show cause pursuant to
Code § 19.2-358, he or she has the opportunity to
present evidence concerning his or her ability to pay
and obtain either temporary or permanent relief from
the obligation to pay costs.” Id. In this manner,
“Virginia’s statutory scheme works to enforce the duty
of paying costs ‘only against those who actually
become able to meet [the responsibility] without
hardship.’” Id. (alteration in original) (quoting Fuller
v. Oregon, 417 U.S. 40, 54 (1974)).
Consequently, contrary to appellant’s arguments,
the trial court did not abuse its discretion and acted
within its statutory authority to assess the court costs
against appellant and make the payment of such costs
a condition of his suspended sentence.

App-31
This order is final for purposes of appeal unless,
within fourteen days from the date of this order, there
are further proceedings pursuant to Code § 17.1407(D) and Rule 5A:15(a) or 5A:15A(a), as
appropriate. If appellant files a demand for
consideration by a three-judge panel, pursuant to
those rules the demand shall include a statement
identifying how this order is in error.
The trial court shall allow court-appointed
counsel the fee set forth below and also counsel’s
necessary direct out-of-pocket expenses. The
Commonwealth shall recover of the appellant the costs
in this Court and in the trial court.
This Court’s records reflect that Meredith M.
Ralls, Esquire, is counsel of record for appellant in this
matter.
Costs due the Commonwealth by appellant in Court of
Appeals of Virginia:
Attorney’s fee $400.00 plus costs and expenses
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:
Deputy Clerk
Deputy Clerk

App-32
SUPREME COURT OF VIRGINIA
________________
Record No. 170780
From the Court of Appeals of Virginia No. 2081-16-4
________________
JUSTIN MICHAEL WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
February 5, 2018
________________
ORDER
Upon review of the record in this case and
consideration of the argument submitted in support of
the granting of an appeal, the Court refuses the
petition for appeal.
The Circuit Court of Prince William County shall
allow court-appointed counsel the fee set forth below
and also counsel’s necessary direct out-of-pocket
expenses. And it is ordered that the Commonwealth
recover of the appellant the costs in this Court and in
the courts below.
Costs due the Commonwealth by appellant in
Supreme Court of Virginia:
Attorney’s fee $400.00 plus costs and expenses

App-33
A Copy,
Patricia L. Harrington, Clerk
By:
Deputy Clerk

App-34
SUPREME COURT OF VIRGINIA
________________
Record No. 170780
From the Court of Appeals of Virginia No. 2081-16-4
________________
JUSTIN MICHAEL WOLFE,
against

Appellant,

COMMONWEALTH OF VIRGINIA,
Appellee.
________________
March 23, 2018
________________
ORDER
Upon a Petition for Rehearing
On consideration of the petition of the appellant
to set aside the judgment rendered herein on the 5th
day of February, 2018 and grant a rehearing thereof,
the prayer of the said petition is denied.
A Copy,
Teste:
Patricia L. Harrington, Clerk
By:
Deputy Clerk

App-35
Appendix E
VIRGINIA
CIRCUIT COURT OF
PRINCE WILLIAM COUNTY
________________
Nos.: CR12003732-00–CR12003737-00
________________
COMMONWEALTH OF VIRGINIA,
vs.
JUSTIN MICHAEL WOLFE,
Defendant.
________________
Filed November 28, 2012
Hon. Mary Grace O’Brien
Hearing: November 20, 2012
JW-2012-31
________________
MOTION TO DISMISS INDICTMENTS
CONSTITUTING A VINDICTIVE
PROSECUTION
COMES NOW the Defendant, Justin Michael
Wolfe, by and through counsel, and moves this
Honorable Court to dismiss the indictments brought
vindictively against Mr. Wolfe in retaliation for the
exercise of his constitutional rights to petition for and
receive federal habeas corpus relief. In making this
Motion, Mr. Wolfe relies upon his rights to due process
of law, to a fair trial, to be free of cruel and unusual
punishment, to equal protection, and his fundamental
right to seek and receive habeas corpus relief from an

App-36
unlawful imprisonment by the Commonwealth.
U.S. Const. art. 1; § 9: U.S. Const. amend. V, VI, VIII,
XIV; Va. Const. art. I §§ 8, 9, 11.
PROCEDURAL HISTORY
Mr. Wolfe expressly adopts and incorporates the
procedural history of his case as stated in his Motion
to Exclude Testimony from Prior Trial, JW-XX, which
is filed contemporaneously with this Motion. For the
purposes of this Motion, however, the following facts
warrant emphasis:
1. Mr. Wolfe has been indicted on purported
charges of capital murder and related felonies. If
convicted of capital murder plus an aggravatorelement, Mr. Wolfe could be sentenced to death. Va.
Code §§ 18.2-10(a), 18.2-31, 19.2-264.4.
2. Mr. Wolfe was originally indicted for offenses
related to these same events in May and July of 2001.
The 2001 indictments alleged conspiracy to dispense
marijuana, use or display of a firearm in commission
of a felony, and capital murder for hire. The
Commonwealth’s theory of the case at that time—
which has changed dramatically now that Mr. Wolfe
has received habeas corpus relief in federal court—
was that Mr. Wolfe had hired admitted triggerman
Owen Barber to kill Daniel Petrole. On January 7,
2002—after a trial fraught with constitutional
violations
that
included,
Brady
violations,
choreographed testimony, and the
knowing
presentation
of
false
testimony
by
the
Commonwealth—Mr. Wolfe was convicted of all
charges.
3. In 2005, Mr. Wolfe petitioned for federal habeas
corpus relief in the United States District Court for

App-37
the Eastern District of Virginia, raising his actual
innocence as a reason to excuse the procedural default
of any substantive claims, as recognized in Schlup v.
Delo, 513 U.S. 298 (1995) (holding that where a
“habeas petitioner . . . show[s] that ‘a constitutional
violation has probably resulted in the conviction of one
who is actually innocent,’” that actual innocence
serves as a gateway to the consideration of otherwise
defaulted substantive claims). Judge Raymond
Jackson considered Mr. Wolfe’s Schlup claim and
determined that he had satisfied the actual innocence
standard. Wolfe v. Johnson, No. 2:05cv432, 2010 U.S.
Dist. LEXIS 144840, *20 (E.D. Va. Feb. 4, 2010). This
finding was compelled by extensive documentary
evidence submitted by Mr. Wolfe. Most significantly,
several affidavits attested to the fact that Mr. Barber
in fact had committed the murder of Mr. Petrole
without Mr. Wolfe’s instigation and without his
knowledge.
4. Mr. Wolfe’s convictions for the 2001
indictments were set aside by the District Court. Wolfe
v. Clarke, 819 F. Supp. 2d 538, 574 (2011). In vacating
Mr. Wolfe’s convictions, the District Court made
extensive legal holdings and factual findings
regarding the injustices perpetrated in this case. In
addition to numerous Brady violations. the District
Court found that the Commonwealth had violated Mr.
Wolfe’s constitutional rights by knowingly and
intentionally presenting false testimony against him
in contravention of Giglio v. United States, 405 U.S.
150 (1972) and Napue v. Illinois, 360 U.S. 264, 269
(1959). Furthermore. the District Court found that the
prosecution in Mr. Wolfe’s case could not “claim that
they were unaware of the falsities in Barber’s

App-38
testimony in light of the exculpatory information in its
possession at the time of the trial” and that the
Commonwealth “had notice that Barber’s trial
testimony implicating Wolfe was false.” Id. at 571. The
Court observed that Mr. Ebert himself had testified
“that he employs a practice of withholding information
from counsel and defendants with the intent of
preventing them from establishing a defense” and that
this acknowledgment “shows the Commonwealth’s
intent in withholding exculpatory information as well
as its knowledge about the consequences of
suppressing and failing to pursue such evidence.” Id.
5. The District Court found the case against Mr.
Wolfe to be “circumstantial”·and “best [] described as
tenuous.”·Id. at 564. The constitutional violations
against Mr. Wolfe were not mere technicalities; as the
District Court observed, “[t]he Commonwealth stifled
a vigorous truth-seeking process in this criminal case.”
Id. at 571.
6. Almost immediately after the release of the
District Court’s opinion. Mr. Wolfe was moved from
Death Row to segregation under circumstances the
District Court considered suspicious. The Court
rejected the Director’s supposed reasons for
transferring Mr. Wolfe to segregation “given the
inconsistent rationales and the uncontroverted
evidence of the transfer’s effects on Wolfe.” Wolfe v.
Clarke, 819 F. Supp. 2d 574, 588 (2011). The Court
noted that the transfer had a “punitive” effect, and
determined that “[t]he Court deems questionable the
fact that the Director transferred Wolfe to segregation
within days of this Court’s judgment vacating all of
Wolfe’s convictions and sentences.” Id. The Court

App-39
ordered the alternative relief requested by Mr. Wolfe,
which was that he be transferred back to Death Row
and that his employment and privileges be restored.
Id.
7. On August 16, 2012, the United States Court of
Appeals for the Fourth Circuit affirmed the District
Court’s grant of habeas relief, reiterating Judge
Jackson’s conclusion that the conduct of the Prince
William County prosecutors in obtaining Mr. Wolfe’s
2002 convictions had been “not only unconstitutional
in regards to due process, but abhorrent to the judicial
process.” Wolfe v. Clarke, 691 F.3d 410, 424 (4th Cir.
2012) (quoting Wolfe, 819 F. Supp. at 566 n.24). The
Fourth
Circuit
soundly
reprimanded
the
Commonwealth:
[I]t is difficult to take seriously the
Commonwealth’s protestations of unfair
ambush, when Wolfe had to labor for years
from death row to obtain evidence that had
been
tenaciously
concealed
by
the
Commonwealth, and that the prosecution
obviously should have disclosed prior to
Wolfe’s capital murder trial.
Id. at 422. Additionally, the Fourth Circuit felt
“compelled to acknowledge that the Commonwealth’s
suppression of the Newsome report, as well as other
apparent Brady materials, was entirely intentional.”
Id. The Fourth Circuit described Mr. Ebert’s
rationale—that he purposefully avoided providing
information that could be used “to fabricate a
defense”—as a “flabbergasting explanation,” and
found that the District Court had “rightly lambasted”
the Commonwealth’s conduct in Mr. Wolfe’s case. Id.

App-40
The Court pointed out that in an earlier case arising
out of Prince William County, it had similarly
“refus[ed] to condone the suppression of evidence by
the Prince William County prosecutors, and advised
them to ‘err on the side of disclosure, especially when
a defendant is facing the specter of execution.’” Id. at
424 (quoting Muhammad v. Kelly, 575 F.3d 359, 370
(4th Cir. 2009)). The Fourth Circuit concluded, “[w]e
sincerely hope that the Commonwealth’s Attorney and
his assistants have finally taken heed of those
rebukes.” Id.
9. On September 13, 2012, Mr. Ebert and Mr.
Conway’s ex parte motion to recuse themselves and to
appoint Mr. Raymond Morrogh as special prosecutor
was granted. The very next day, Mr. Morrogh asserted
in this Court that he had only reviewed materials from
the thoroughly discredited 2002 trial, yet
affirmatively stated that “this Defendant was
absolutely involved in this murder and planned it and
caused it to occur and he did it out of greed . . . . Justin
Wolfe is many things but innocent is not one of them.”
2012-10-31, Hr’g Tr. At 24:15-17, 20-21. Because Mr.
Morrogh had only reviewed the 2002 trial, however, he
was presumably unaware of the nature and extent of
the evidence withheld from Mr. Wolfe, as well as the
false testimony offered against him.
10. On October 1, 2012, Mr. Morrogh again
presented these cases to a Prince William County
Grand Jury, which returned no fewer than six
additional charges to append to the original three.
Two of the new indictments—CR12003734-00 and
CR12003735-00—allege that Mr. Wolfe “was one of
several principal administrators, organizers or leaders

App-41
of a continuing criminal enterprise” in violation of
Virginia Code § 18.2-248(H1), (H2) (Virginia’s version
of the federal “Drug King Pin Act”). Additionally, the
Commonwealth now alleges that Mr. Wolfe is guilty of
capital murder “by direction or order of one who is
engaged in a continuing criminal enterprise.” See
Indictment C212003732-00. Thus, after wrongfully
convicting Mr. Wolfe under a murder-for-hire theory,
imprisoning him on death row for a decade, and
obstructing his efforts to discover evidence of his
innocence and the constitutional violations against
him, the Commonwealth now not only purports to
change the theory under which it will prosecute Mr.
Wolfe, but also seeks convictions and sentences even
more severe than those successfully challenged by Mr.
Wolfe in federal court.
ARGUMENT
The indictments brought against Mr. Wolfe on
October 1, 2012, must be dismissed because they
constitute a vindictive prosecution in violation of the
Due Process Clause of the Fourteenth Amendment.
Due process requires that a defendant who has
successfully challenged his conviction must not be
subjected to harsher charges or penalties as a
consequence. Blackledge v. Perry, 417 U.S. 21 (1974)
(holding that reindicting a defendant on more serious
charges after he successfully challenges his conviction
on a prior indictment is a due process violation). “To
punish a person because he has done what the law
plainly allows him to do is a due process violation of
the most basic sort.” Bordenkircher v. Hayes, 434 U.S.
357, 363 (1978).

App-42
Of course, a prosecutor may not bring charges
with a vindictive motive, since “penalizing those who
choose to exercise constitutional rights, ‘would be
patently unconstitutional.’” North Carolina v. Pearce,
395 U.S. 711, 724 (1969), overruled in part by Alabama
v. Smith, 490 U.S. 794 (1989)1 (quoting United States
v. Jackson, 390 U.S. 570, 581 (1968)). The
constitutional bar on vindictive prosecutions,
however, is not limited to cases in which the defendant
can prove a vindictive motive. Blackledge v. Perry, 417
U.S. 21, 28 (1974); United States v. Goodwin, 457 U.S.
368, 381 (1982). Rather, once a defendant
demonstrates that the prosecutor increased charges
after the defendant exercised a constitutional or
statutory right, the court will presume vindictiveness
on the part of the prosecutor. Goodwin, 457 U.S. at 381
(1982); United States v. Wilson, 262 F.3d 305, 319 (4th
Cir. 2001) (noting that typical vindictive prosecution
claims arise in situations where “the decision was
made not to try the defendant on an additional
available charge later brought only after the
defendant’s successful appeal”).
This presumption is rooted in the fundamental
tenet that the defendant is entitled to pursue his
rights “without apprehension that the State will
retaliate by substituting a more serious charge for the
original one, thus subjecting him to a significantly
1 In Smith, the Court held only “that no presumption of
vindictiveness arises when the first sentence was based upon a
guilty plea, and the second sentence follows a trial.” 490 U.S. at
795. Smith is limited to the plea-bargaining context and leaves
un-disturbed the presumption of vindictiveness that arises in the
retrial context.

App-43
increased potential period of incarceration.” Duck v.
Commonwealth, 8 Va. App. 567, 572 (1989). “For while
an individual certainly may be penalized for violating
the law, he just as certainly may not be punished for
exercising a protected statutory or constitutional
right.” Goodwin, 457 U.S. at 372. The United States
Supreme Court in Pearce first articulated the due
process rationale barring vindictive prosecutions of
this very nature, stating that “the very threat inherent
in the existence of such a punitive policy would. with
respect to those still in prison, service to ‘chill the
exercise of basic constitutional rights.’” Id. at 724
(citations omitted) (second and third alterations in
original). Thus the constitutional bar on vindictive
prosecutions arises from “the danger that the State
might be retaliating against the accused for lawfully
attacking his conviction.” Bordenkircher v. Hayes, 434
U.S. 357, 363 (1977).
A presumption of vindictiveness arises from
additional or more severe charges brought on retrial
because “a change in the charging decision made after
an initial trial is completed is much more likely to be
improperly motivated than is a pretrial decision.”
Goodwin, 457 U.S. at 381. This is a commonsense
presumption reflecting the fact that “certainly by the
time a conviction has been obtained[.] it is much more
likely that the State has discovered and assessed all of
the information against an accused and has made a
determination . . . of the extent to which he should be
prosecuted.” Id. “Thus, if a prosecutor responds to a
defendant’s successful exercise of his right to appeal
by bringing a more serious charge against him, he acts
unconstitutionally. Such retaliatory conduct amounts
to vindictive prosecution and is unconstitutional.”

App-44
United States v. Wilson, 262 F.3d 305, 314 (4th Cir.
2001).
Where more severe charges are brought on retrial,
“the burden shifts to the government to present
objective evidence justifying its conduct.” Id. at 315
(citing Goodwin, 457 U.S. at 374, 376 n.8). The burden
is on the government because “[m]otives are complex
and difficult to prove. As a result, in certain cases in
which action detrimental to the defendant has been
taken after the exercise of a legal right, the Court has
found it necessary to ‘presume’ an improper vindictive
motive.” Goodwin, 457 U.S. at 373. In Blackledge, the
United States Supreme Court applied this analysis to
a prosecutor who sought more severe charges in a trial
de novo, holding “that the likelihood of vindictiveness
justified a presumption that would free defendants of
apprehension of . . . a retaliatory motivation on the
part of the prosecutor.” Id. at 376. Because the rule is
designed to ensure that defendants are free to exercise
their constitutional rights to challenge their
convictions, “[t]he Court emphasized in Blackledge
that it did not matter that no evidence was present
that the prosecutor had acted in bad faith or with
malice in seeking the felony indictment.” Id. The
presumption of vindictiveness is not only a
commonsense rule, but also a burden-shifting device
necessary to counteract subconscious institutional
biases operating against the previously convicted
defendant:
Both Pearce and Blackledge involved the
defendant’s exercise of a procedural right that
caused a complete retrial after he had been
once tried and convicted. The decisions in

App-45
these cases reflect a recognition by the Court
of the institutional bias inherent in the
judicial system against the retrial of issues
that have already been decided. The doctrines
of stare decisis, res judicata, the law of the
case, and double jeopardy are all based, at
least in part, on that deep-seated bias. While
none of these doctrines barred the retrials in
Pearce and Blackledge, the same institutional
pressure might also subconsciously motivate
a vindictive prosecutorial or judicial response
to a defendant’s exercise of his right to obtain
a retrial of a decided question.
Id. at 376-77.
The Fourth Circuit has applied these principles in
circumstances similar to those in Mr. Wolfe’s case.
See, e.g., United States v. Johnson, 537 F.2d 1170 (4th
Cir. 1976). In Johnson, the Fourth Circuit vacated a
defendant’s convictions for two narcotics charges. On
retrial, the prosecution re-indicted, retried, and
convicted the defendant on additional charges, only
one of which had appeared in the initial indictment.
The Fourth Circuit vacated the convictions for all but
the latter charge, finding that the circumstances gave
rise to a presumption of a vindictive prosecution. Id.
at 1171-74. The Fourth Circuit rejected the contention
that the indictments were warranted by new
information not known to the prosecution at the time
of the offense, acknowledging that “instead of simply
assessing the prosecutor’s knowledge at the time the
original indictment was returned, as the government
suggests, we must examine all circumstances of [the

App-46
defendant’s] situation.” Id. at 1173. 2 The Court
expressly found that there was no evidence of
retaliatory motive; however, the presumption applied.
Thus, “[a]fter [the defendant] successfully challenged
his conviction on the first indictment his prosecution
on the increased charges of the superseding
indictment denied him due process of law.” Id. The
single overlapping indictment could only be “affirmed
because it is identical to count one of the first
indictment and the court imposed the same
punishment.” Id. at 1173-74.
The presumption of vindictiveness may bar new
indictments on retrial that are additional to or more
severe than the original indictments brought against
a defendant who successfully challenges his
convictions. See, e.g., id.; United States v. Hill, 93
F. App’x 540, 546 (Court? 2004) (observing that
“‘generally a potentially vindictive superseding
indictment must add additional charges or substitute
more severe charges based on the same conduct’”)
(quoting United States v. Suarez, 263 F.3d 468, 480
(6th Cir. 2001) (emphasis added)): United States v.
Wilson, 262 F.3d 305, 314 (Court? 2001) (noting that
the typical vindictive prosecution case is one in which
“at the time the prosecutor initially tried the
defendant the decision was made not to try the
defendant on an additional available charge later
2 The individual prosecutor need not be the same for a
vindictive prosecution challenge to lie. Rather, “most successful
vindictive prosecution claims involve retaliatory prosecutions by
the same sovereign that earlier brought the defendant to trial.”
United States v. Woods, 305 F. App’x 964, 967 (4th Cir. 2009)
(citing Goodwin, 457 U.S. at 381).

App-47
brought only alter the defendant’ s successful appeal
. . . [i]n that situation . . . an inference may be drawn
that the prosecutor’s decision making was influenced
by the only material fact different the second time
around—the defendant’s successful appeal of his
original conviction”); United States v. Williams, 47
F.3d 658, 660 (Court? 1994) (“[A] prosecutor cannot
reindict a convicted defendant on more severe charges
after the defendant has successfully invoked an
appellate remedy.”); United States v. Whitley, 734 F.2d
994 (Court? 1984) (holding that the imposition of a
harsher sentence on retrial after the defendant
successfully challenged his conviction for a lesserincluded offense was a due process violation); United
States v. Belcher, 762 F. Supp. 666, 668–670 (W.D. Va.
1991) (barring new indictments for conspiracy and use
of a firearm in furtherance of the conspiracy after the
defendant successfully challenged his original
conviction on one count of manufacturing marijuana,
and holding that the defendant could not be tried “for
anything more than a single count of manufacturing
marijuana”); Barrett v. Commonwealth, 268 Va. 170,
177–78 (2004) (noting that the presumption of
vindictiveness applies where “the enhanced charge or
punishment was directly related to the reversal on
appeal of the initial charge,” not where a different
victim is alleged); Battle v. Commonwealth, 12 Va.
App. 624, 629 (Va. Ct. App. 1991) (reversing
convictions where “the enhanced charges brought
against [the defendant] were in direct response to [his]
successful
suppression
motion”);
Duck
v.
Commonwealth, 8 Va. App. 567 (Va. Ct. App. 1989)
(reversing conviction where harsher charges were
brought upon de novo appeal to circuit court); see also

App-48
United States v. DeMarco, 550 F.2d 1224 (9th Cir.
1977) (dismissing new indictment on more severe
charges that were based on the same facts underlying
the original indictment).
A presumption of vindictiveness thus applies to
the new indictments brought against Mr. Wolfe. Each
of the new indictments is a more severe charge or an
additional charge brought in response to Mr. Wolfe’s
successful petition for habeas corpus relief. In 2001,
Mr. Wolfe was charged with conspiracy to dispense
marijuana, capital murder for hire, and use or display
of a firearm in the commission of murder. Now, in
2012, he stands charged for the 2001 indictments, plus
two new and additional continuing criminal enterprise
(‘‘CCE”) charges, a new and additional capital murder
charge contingent on the CCE charges, a new and
additional felony murder charge, a new and additional
charge for use or display of a firearm in the
commission of or attempt to commit a robbery, and an
additional charge for use or display of a firearm in the
commission of murder. Each of these is a new and
additional charge. Only one charge—use or display of
a firearm in the commission of murder—is identical to
a charge that Mr. Wolfe previously faced. As discussed
in Belcher and Johnson, however, the Commonwealth
can only pursue a single charge that replaces an
identical prior indictment. A presumption of
vindictiveness attaches to this charge due to the fact
that the Commonwealth has now indicted Mr. Wolfe
on two charges of use or display of a firearm.
Indictments CR12003734-00 and CR12003735-00
are both much harsher indictments based on the same
set of circumstances as alleged in the 2001 conspiracy

App-49
charge. Having sought and received a maximum
penalty of thirty years against Mr. Wolfe for a charge
of conspiracy to distribute more than five pounds of
marijuana, the Commonwealth now seeks to
impermissibly increase the severity of his drugrelated charges in retaliation for the exercise of his
constitutional rights, hoping to secure a life sentence.
Now that Mr. Wolfe has received habeas corpus relief,
the Commonwealth alleges that he “was one of several
principal administrators, organizers or leaders of a
continuing criminal enterprise.”·Such charges are
plainly barred under the vindictive prosecution
doctrine, and a presumption of vindictiveness applies
to these charges under Blackledge and the other
authorities cited herein.
Additionally, because capital murder indictment
CR12003732-00 relies on the predicate of a continuing
criminal enterprise, it is dependent upon those
indictments and a presumption of vindictiveness
applies to it. This capital murder charge is not
identical to the 2001 capital murder indictment;
rather, it is part of an indictment strategy designed to
expose Mr. Wolfe to the much harsher penalties faced
by an alleged organizer of a continuing criminal
enterprise. Finally, the presumption applies because
it is an additional indictment, subjecting Mr. Wolfe to
two charges of capital murder instead of a single
charge. Similarly, indictment CR12003733-00 is an
additional indictment for use or display of a firearm in
the commission of murder, and thus the presumption
of vindictiveness applies to the Commonwealth’s
attempt to subject Mr. Wolfe to multiple charges based
on the same facts for which he previously faced only a
single charge.

App-50
Indictments CR12003736-00 and CR12003737-00
allege, respectively, a new and additional felony
murder charge and a new and additional charge for
use or display of a firearm in the commission of or
attempt to commit a robbery. These indictments are
also plainly barred by the vindictive prosecution
doctrine, and a presumption of vindictiveness arises.
Mr. Wolfe has never faced a felony murder charge
before, yet he is now charged with three separate and
different counts of murder. Similarly, he has never
been charged with use or display of a firearm in the
commission of or attempt to commit a robbery, yet now
he is indicted for three separate and different firearms
charges. All of the 2012 indictments are based entirely
on the events for which the Commonwealth originally
indicted Mr. Wolfe in 2001, yet each indictment now
presents a harsher charge or an additional charge to
which Mr. Wolfe was not previously subject. Because
the Commonwealth is seeking additional charges and
more severe charges, a presumption of vindictiveness
applies to all of the 2012 indictments.
Finally, the Commonwealth cannot rebut the
presumption of a vindictive prosecution. As discussed
in the procedural history above, Mr. Wolfe was
originally indicted for charges related to these events
in 2001. He was convicted on all of these charges in a
trial fraught with due process violations that deprived
him of any opportunity to defend himself. Mr. Wolfe
sought and received federal habeas corpus relief,
which was granted in a scathing opinion by the
District Court and upheld by another scathing opinion
by the Fourth Circuit. These opinions note that the
Prince William County Commonwealth’s Attorneys
likely violated ethical rules in Mr. Wolfe’s case, that

App-51
they were not credible witnesses, that the
prosecution’s actions were “abhorrent to the judicial
process,”
that
their
explanations
were
“flabbergasting,” and that it was time for them to
finally heed the Fourth Circuit’s rebukes and cease
their pattern of constitutional violations.
After the Fourth Circuit issued its mandate on
September 7, 2012, on September 11, 2012. Mr. Ebert,
Mr. Conway, and Mr. Newsome visited Owen Barber
in prison. Although Mr. Barber maintained that his
testimony exculpating Mr. Wolfe was true, the
prosecutors continued to push Mr. Barber. They
informed him that his case and Mr. Wolfe’s were back
at “square one” and that he could face increased
penalties. Tellingly, the prosecutors informed Mr.
Barber that he could face substantially the same
charges on which Mr. Morrogh later indicted Mr.
Wolfe. Perhaps most importantly, however, the
Commonwealth discussed with Mr. Barber the fact
that the reversal of Mr. Wolfe’s case has had personal
repercussions for them, and the fact that their
reputations have been harmed.
Only after that meeting, on September 13, 2012,
did Mr. Ebert and Mr. Conway file an ex parte motion
to recuse themselves and to appoint Mr. Raymond
Morrogh as special prosecutor, acknowledging their
disqualification. The motion was granted and Mr.
Morrogh was appointed. The very next day, Mr.
Morrogh asserted in this Court that he had only
reviewed the transcript from the thoroughly
discredited 2002 trial, yet affirmatively stated that
“this Defendant was absolutely involved in this
murder and planned it and caused it to occur and he

App-52
did it out of greed . . . . Justin Wolfe is many things but
innocent is not one of them.” 2012-10-31, Hr’g Tr. at
24:15-17, 20-21. Mr. Morrogh never disclosed, nor
even mentioned, additional investigatory efforts on
the part of the Commonwealth. Having no time to
conduct an additional investigation, it is plain that the
current prosecution decided to bring additional and
more severe charges against Mr. Wolfe based solely on
evidence from Mr. Wolfe’s first tainted trial. Under
these circumstances, the Commonwealth could not
possibly rebut the presumption of vindictiveness that
attaches to the new indictments.
CONCLUSION
WHEREFORE, for the foregoing reasons, this
Court should dismiss the October 1, 2012 indictments
brought against Mr. Wolfe.
Respectfully submitted.
JUSTIN MICHAEL WOLFE
By Counsel
s/Kimberly A. Irving
Irving & Irving, PC
By: Kimberly A. Irving
VSB#45498
9001 Center St.
Manassas, VA 20110
(703) 530-9001 Voice
(703) 530-8555 Facsimile
Counsel for Defendant
***

App-53
Appendix F
Excerpt of Transcript
VIRGINIA
CIRCUIT COURT OF
PRINCE WILLIAM COUNTY
________________
Criminal Case Nos.: CR05050489, CR05050490,
CR05050703, CR12003732, CR12003733,
CR12003734, CR12003735, CR12003736
________________
COMMONWEALTH OF VIRGINIA,
-vsJUSTIN MICHAEL WOLFE,
Defendant.
________________
December 11, 2012
Filed January 2, 2013
Circuit Courtroom 3
Prince William County Courthouse
Manassas, Virginia
________________
The above-entitled matter came on to be heard
before THE HONORABLE MARY GRACE O’BRIEN,
Judge, in and for the Circuit Court of Prince William
County, in the Courthouse, Manassas, Virginia,
beginning at 10:06 o’clock a.m.
***
[3] * * * THE COURT: Good morning, folks. We
are on the record in the case of the Commonwealth
versus Justin Wolfe. Mr. Wolfe is present in person

App-54
with counsel, Mr. MacMahon, Ms. McGarrity and Ms.
Irving. And Mr. Morrogh and Mr. Lingan are here for
the Commonwealth.
I have five motions before me, folks. Motion to
exclude testimony from a prior trial, motion to exclude
expert testimony, motion to dismiss indictments
constituting a vindictive prosecution, motion for
issuance of witness subpoenas for Paul Ebert and
Richard Conway to testify at Mr. Wolfe’s trial and
motion for issuance of witness subpoenas for Paul
Ebert and Richard Conway to testify at a pretrial
hearing next Tuesday.
Am I missing anything?
MS. IRVING: No, Your Honor.
THE COURT: All right. That’s good. And thank
you all. I did get the opportunity to get the motions,
the briefs, the oppositions and review all of them as
well as hopefully review all of the attached exhibits.
***
[143] So it’s fair for us to treat it as if it doesn’t
exist. Finally, Your Honor, the Commonwealth really
hasn’t responded at all to the point that even without
the reports, setting that issue aside, the content of
what remains in their notice does not include the
actual opinions of these experts and the basis and
reasons for them. Thank you, Your Honor.
THE COURT: Thank you. The last motion that
you all have is the last motion for today. It is the
motion to dismiss the indictments as constituting a
vindictive prosecution.

App-55
MS. IRVING: Your Honor, I want to let the Court
know that I will be calling to the stand, Detective
Newsome in this case.
And I’m not sure if the Commonwealth intends to
call him but I would ask for a rule on witnesses in case
they decide there’s an evidentiary burden that they
need to meet.
THE COURT: Okay.
Mr. Lingan, Mr. Morrogh, do you folks plan to call
any witnesses?
MR. LINGAN: No, Your Honor.
THE COURT: Okay.
[144] MR. LINGAN: I think there is a dispute over
how far this motion goes and if the Court views it as
going to a certain extent, I think we would ask for a
separate evidentiary hearing.
That being, if the Court feels that there’s a
presumption raised, we would ask for a separate
evidentiary hearing but obviously we feel that that is
not the issue.
So I think that is the first hurtle and in that
realm, we do not anticipate calling witnesses, Your
Honor, at least none beyond Detective Newsome that
are present.
THE COURT: Okay. I understand your position.
Okay. Ms. Irving, go ahead, ma’am.
MS. IRVING: Your Honor, I call Detective
Newsome to the stand.
THE COURT: Detective Newsome, come on up to
the witness stand then.
Whereupon

App-56
SAMSON NEWSOME
a witness, was called for examination by counsel on
behalf of the Defendant, and after having been duly
sworn by the Clerk of the Court, was examined and
testified, as [145] follows:
DIRECT EXAMINATION
BY MS. IRVING:
sir.

Q

Please introduce yourself for the Court,

A

Samson C. Newsome.

Q

Detective Newsome, are you employed?

A

Yes, ma’am, I am.

Q

For how long have you been employed?

A

Currently?

Q

Yes, sir.

A

Since September.

Q

Of this year?

A

I’m sorry, ma’am.

Q

Of this year?

A

Yes, ma’am.

Q
What date did you -- or where are you
employed right now?
A
Prince
Department.

William

County

Police

Q
And when did you start your current
tour, if you were.
A
I don’t recall the exact day. It as the first
week of September.

App-57
Q
You were previously employed by the
Prince [146] William County Police Department?
A

Yes, ma’am.

Q

In what capacity?

A
Prior to retiring, I was employed as a
police officer. I retired as a Master Detective.
Q
there?

For what years were you employed

A
From 1980 to 2010 but 2008 is when I
first retired.
Q
And did you have an opportunity to work
on the case that we’re here now, the original charges
back in 2001?
A
Q
that time?

Yes, ma’am, I did.
And what was your role in the case at

A
I was a Detective assigned to the case. I
was not the case agent. I was just one of the
Detectives.
MS. IRVING: Your Honor, may I approach?
THE COURT: Sure.
BY MS. IRVING:
Q
Detective Newsome, I’m handing you
three pages.
Can you look at them and tell the Court what
those are?
[147] A

Yes, ma’am.

These appear to be Grand Jury indictments.
Q

Okay.

App-58
And who are they against?
A
Wolfe.

Are three of these are against Justin

Q
Is this a fair and accurate depiction of the
indictments as they stood in the charges for 2001?
A
I don’t think I
indictments specifically before.
Q
in 2001?

have

seen

these

Do you know what he was charged with

A

Yes, ma’am.

Q

And what was he charged with?

A
They are representative of what he was
charged with.
Q

Okay.

And how many are there?
A

There are three of them.

Q

Okay.

Can you tell this Court, for the record, what is the
maximum punishment for capital murder?
A

I’m sorry. I can’t hear well.

Q
What is the maximum punishment for
capital murder?
[148] A

One more time, please.

Q
What is the maximum punishment for
capital murder?
A

Execution.

Q
What about use of a firearm in the
commission of a felony?
A

I believe it’s 20 years.

App-59
Q
How about conspiracy to dispense
marijuana as it’s written in the third indictment?
A

That one I don’t know.

Q

Do you do a lot of drug cases?

A

I don’t do many drug cases at all, ma’am.

MS. IRVING: Your Honor, I’d ask the Court to
receive these as Defense 1.
THE COURT: Any objection?
MR. LINGAN: No, ma’am.
THE COURT: Okay. Thank you. They’ll be
introduced as Defense 1 for this motion.
MS. IRVING: Thank you, Your Honor.
(The documents referred to above were
marked as Defendant’s Exhibit No. 1 for
identification [149] and admitted into
evidence.)
BY MS. IRVING:
Q
Detective Newsome, have you followed
this case as it has gone through the Federal level
courts?
A
ma’am.

Only to the extent of my involvement,

Q
Are you aware at all of what happened in
the Federal Courts?
A

Yes, ma’am.

Q

Okay.

Are you aware of what the end results of the
hearings in Federal Court were?
A

Yes, ma’am.

App-60
Q

And what is that?

A
That they were sent back -- the
convictions were overturned and it was sent back to
State Court.
MS. IRVING: Your Honor, Courts indulgence. I’ve
handed something to the Commonwealth.
MR. LINGAN: No objection, Your Honor.
MS. IRVING: Okay.
Your Honor, if I may, I don’t know if the Detective
will have any knowledge of this but I’d ask the Court
to receive this as Defense 2. That’s the order from the
Federal Courts.
[150] THE COURT: Obviously 2011 order from
Judge Jackson.
MS. IRVING: Yes, Your Honor.
THE COURT: That will be Defendant’s 2.
(The document referred to above was
marked as Defendant’s Exhibit No. 2 for
identification
and
admitted
into
evidence.)
BY MS. IRVING:
Q
It’s fair to say shortly after that order you
were rehired with the Police Department; is that
correct?
A
When you say shortly after the order, I’m
not sure when the order was, ma’am.
Q
The order we just handed up was August
of 2011, I believe actually, so the next year you were
rehired?
A

In September of 2012.

App-61
Q

2012?

A

Yes, ma’am.

Q

Okay.

At the time that you were rehired, did you start
reinvestigating this case again?
[151] A

Yes, ma’am.

Q
And when you started investigating the
case, who were the prosecutors on the case?
A

Mr. Ebert and Mr. Conway.

Q
And can you describe for the Court what
you all did on September 11th of this year?
A
Yes, ma’am. We traveled to Augusta
Correctional Center or the Augusta Center, it’s under
Virginia Department of Corrections, to interview Mr.
Owen Barber.
Q

Okay.

And did you have that interview?
A

Yes, ma’am, we did.

Q

Okay.

And were you present for the entire interview?
A

Yes, ma’am, I was.

Q

And who was in the room with you, sir?

A

It was myself, Mr. Conway --

MR. LINGAN: Your Honor, I would object at this
point to relevance. It’s already been established in
prior hearings through this witness that Mr. Morrogh
was not even involved and myself was not involved in
this meeting.

App-62
[152] This is a case of prosecutorial vindictiveness
on the new charges which were brought by Mr.
Morrogh as a special prosecutor.
THE COURT: Ms. Irving.
MS. IRVING: Your Honor, I believe that some of
the statements, and I will tell the Court, I only intend
to ask about three questions regarding that meeting,
that Detective Newsome was there.
But I do believe that it is relevant testimony to the
prosecution as it stands. I can certainly bring it up on
rebuttal if I need to, if Your Honor doesn’t want to hear
it now.
THE COURT: I don’t think it’s relevant at this
point unless there’s some question elicited on cross
examination that would require you to bring it up as
rebuttal.
I would certainly allow you to do that but at this
point on this motion with regard to these charges, I’m
going to sustain the Commonwealth’s objection.
MS. IRVING: May we approach so I can make a
proffer of what I was going to ask the Detective in the
next question, Your Honor.
THE COURT: If you were going to make a [153]
proffer, then you ask him, he answers and it’s on the
record. That’s the way you’d have to proceed. But I
would disregard the answer.
MS. IRVING: May I do that?
THE COURT: Certainly.

App-63
BY MS. IRVING:
Q
In the course of this meeting do you recall
Owen Barber asking Mr. Conway how could you
charge me again for murder?
A

Yes, ma’am, I do.

Q
Do you recall Mr. Conway answering
that question?
A

Yes, ma’am, I do.

Q
Do you recall him answering the question
saying that he could charge him for murder in the
course of a killing for hire, murder in the course of an
attempted robbery, murder in the course of a drug
conspiracy?
A
provided?
Q

Can I refer to the transcript you
If Your Honor will --

THE COURT: Well just answer to the best of your
recollection because I have excluded as evidence but
counsel is making a record.
[154] THE WITNESS: To the best of my
recollection, he laid out some of the elements in which
one could be charged for capital murder.
BY MS. IRVING:
Q
And so he laid out new charges that Mr.
Barber could face, new theories of the case?
MR. LINGAN: Your Honor, I object. That’s all -one, that would be leading; two, it’s not relevant; and
three, it’s not what is on the tape.
THE COURT: Well I am going to sustain the
objection. The proffer was you had two or three

App-64
questions. I sustain the objection. So none of this
evidence is being considered by the Court for this
motion.
You had a proffer that you had two or three
questions which would be relevant to this motion and
you have asked a couple of questions and I think the
ruling stands. The objection on the last question is
sustained based on the leading.
I’m going to ask you to move on with regard to the
admissible evidence.
MR. LINGAN: Your Honor, if I could also ask, we
object to that proffer as well, Your Honor. As Mr.
Morrogh stated in the past, we’ve -- the case law says
if [155] you don’t object to the proffer, then it still
becomes part of the case.
THE COURT: I understand.
MR. LINGAN: For appellate purposes, we believe
the tape speaks for itself, that this would be improper
on its foundation as well to ask Detective Newsome his
recollection when we have the tape and it can be
authenticated through him and submitted for the
Court to hear.
And so that’s why we would further object to the
proffer.
THE COURT: I sustain the objection. I’ve
accepted the proffer. I note the objection to the proffer.
So I’ll ask you to go on.
BY MS. IRVING:
Q
Detective Newsome, have you continued
to work on this case?
A

Yes, ma’am, I so.

App-65
Q
And are you aware of what happened on
October 1st of this year?
A

Could you --

Q
Are you aware of what happened in the
Grand Jury on October 1st of this year?
[156] A

That Mr. Wolfe was indicted.

MS. IRVING: May I approach, Your Honor.
THE COURT: Sure.
BY MS. IRVING:
Q
I ask you to look at those six pieces of
paper and tell me if you recognize them.
(Whereupon, Ms. Irving handed documents to the
witness for his examination.)
A
Yes, they are indictments, Grand Jury
indictments.
Q
And are
those
indictments the
indictments that were brought down against Mr.
Wolfe in this case?
A

Yes, ma’am, they are.

Q

And how many of them are there?

A

There are six of them.

Q
If I can take you through, the first
indictment is for capital murder; is that correct?
THE COURT: It will say it up on the right-hand
side.
THE WITNESS: I’m sorry, ma’am.
THE COURT: It will say it up on the right-hand
side.
THE WITNESS: Yes, ma’am.

App-66
[157] THE COURT: Okay.
BY MS. IRVING:
Q
And you already stated the punishment,
maximum punishment for that is execution?
A

Yes, ma’am.

Q
The second indictment is for use or
display of a firearm in the commission of a felony.
Do you know what the maximum punishment for
that is?
A

Yes, ma’am, I believe it’s 20 years.

Q
The third indictment, what do you see
that indictment to be?
A
Drug distribution, continuing criminal
enterprise.
Q
Are you aware at all what the possible
punishment for that would be?
A

No, ma’am.

Q
Are you aware as to whether or not it
would be a higher punishment than just conspiracy to
distribute marijuana?
A
My logical assumption is that it would be
a higher penalty.
Q

What is the next indictment?

[158] A
Drug
criminal enterprise.
Q

distribution,

continuing

Okay.

And is that brought under a second section under
the Code of Virginia? Do you see on the bottom?

App-67
A
question?
Q

Under a separate code section, is that the
Yes.

A
What I’m seeing here is 18.2-248 and
that’s the same one that I’m seeing on the second one
18.2-248.
Q
Is the first one under H1 and the second
one under H2?
A

Hl and H2, yes, ma’am.

Q
Are you aware what the maximum
punishment for somebody convicted under that 18.2248(H2) code is?
A

No, ma’am.

Q
Would it surprise you if it was a
maximum of life?
A

No, ma’am.

Q
Would it surprise you if it was a
minimum of life?
A

No, ma’am.

Q
And the next indictment is another
murder [159] indictment; is that correct?
A

Yes, ma’am.

Q
And are you aware of what the maximum
punishment for this count is?
A
During the commission of or attempted of
robbery is capital.
Q
Are you aware of the following charge,
the last charge?
A
Use of a firearm in the commission of a
felony, yes, ma’am.

App-68
Q

Okay.

And that use of a firearm would also be the same
punishment you previously testified to?
A

I’m sorry.

Q
The use of a firearm, it would be the same
punishment as you previously said; is that correct?
A

Yes, ma’am.

Q
Detective Newsome, if I could draw your
attention to the indictment ending in 36, you indicated
that that was another murder charge, you indicated
that was a capital murder charge.
A

The final charge?

Q

Yes.

[160] A
Q

Yes, ma’am.
Okay. I’ll leave that alone.

MS. IRVING: Your Honor, may I -THE COURT: Sure.
MS. IRVING: I’d ask that the Court receive these
as Defense 3.
THE COURT:
Commonwealth?

Any

objection

from

the

MR. LINGAN: Your Honor, I would just ask for
the record, the last one to be read to the Court.
THE COURT: It’s felony murder, I believe.
MS. IRVING: Yes, Your Honor.
THE COURT: Just on the record, yes.
MS. IRVING: I was going to fix that.

App-69
THE COURT: They’ve been introduced. I’ll accept
them to be introduced and note for the record that the
last indictment is a charge of felony murder.
MR. LINGAN: Thank you, Your Honor.
(The document referred to above was
marked as Defendant’s Exhibit No. 3 for
identification
and
admitted
into
evidence.)
[161] BY MS. IRVING:
Q
Detective Newsome, you were originally
involved in this case in 2001 and 2002 and then you
indicated that you retired in 2010; is that correct?
A

Yes, ma’am.

Q
In the course of that time after the
conviction of Mr. Wolfe in 2002, did you do any new
investigation of Mr. Wolfe?
A

Between then and now?

Q

Between then and when you retired.

A
please?
Q

Could you ask me that question again,
Sure.

There was a trial in 2002 for these charges; is that
correct?
A

Yes, ma’am.

Q

And you were part of that trial; correct?

A

Yes, ma’am.

Q

Okay.

At the close of that trial up until the time you
retired, what if any investigation did you do into
Justin Wolfe and the Danny Petrole murder?

App-70
A
There was no other investigation that I’m
aware of. I didn’t participate.
[162] Q

Okay.

At the time that you were hired again in 2012,
from the time you had retired, had you done any sort
of independent investigation into this case?
A
No, ma’am. I testified in Federal Court
but I didn’t do any investigation. I reviewed my
reports, my notes, things of that nature.
Q
But everything that you testified to at
Federal Court was regarding information that you had
back in your original investigation; is that correct?
A

Yes, ma’am.

Q
And is it fair to say that up until the time
you got back here and these cases came back to Prince
William County in September of 2012, there was no
further investigation into the charges that you know
of?
A

That I was a part of, no, ma’am.

MS. IRVING: Your Honor, at this point, I have no
more questions for Detective Newsome though I may
later on in the hearing.
THE COURT: Mr. Lingan.
MR. LINGAN: Thank you, Your Honor.
[163] CROSS EXAMINATION
BY MR. LINGAN:
Q
Detective Newsome, fair to say you’ve
never gone to law school?
A

No, sir.

Q

And you’re not a lawyer?

App-71
A

No, sir.

Q
And you would defer to a lawyer’s
understanding of what the maximum punishment is
for certain crimes as opposed to your own? If a lawyer
told you it was something different, you would defer to
the lawyer; right?
A

Yes, sir.

Q

Okay.

And that goes with respect to use of a firearm in
the commission of a felony as well?
A

Yes, sir.

Q

Okay.

So you’d actually defer to Ms. Irving’s knowledge
as opposed to your own?
A

Yes, sir.

Q

Okay.

And the Judge’s knowledge as well?
[164] A

Yes, sir.

MR. LINGAN: If I could approach with Defense
Exhibit 1 and Defense Exhibit 2 real quick.
May I, Your Honor?
THE COURT: Sure.
Do you have those, Ms. Irving?
MS. IRVING: Your Honor,
Commonwealth their own copies.

I

gave

the

MR. LINGAN: For the record, I’m referring to -just so I’m not wrong, Defense Exhibit 1 is the
indictments from the original indictments and
Defense Exhibit 2 is the subsequent indictments.

App-72
MS. IRVING: I think the subsequent indictments
should be Exhibit 3.
MR. LINGAN: Exhibit 3, okay.
THE COURT: Yes, Exhibit 3. Exhibit 2 is the
order from District Court.
MR. LINGAN: Oh, I’m sorry, Your Honor.
THE COURT: That’s okay.
MR. LINGAN: That’s why I always ask.
THE COURT: That’s all right. Exhibits 1 and 3.
BY MR. LINGAN:
[165] Q
So Defense 1, if you could look
down, is it signed by somebody? Do you recognize who
that’s signed by?
A

My Detective Walburn.

Q

I’m sorry.

A

I’m sorry, by Paul Ebert.

Q

Okay.

And there’s a signature at the bottom of Defense
3, who is that signed by?
A

Mr. Ray Morrogh.

Q

Okay.

And back when these charges were originally
charged, was Mr. Morrogh involved in the prosecution
of that case?
A

In 2001, sir?

Q

2001.

A

No, sir, he was not to my knowledge.

App-73
Q
case?
A

Was I involved in the prosecution of that
No, sir.

Q
And in fact, you’re aware Mr. Morrogh
has been appointed recently in September 13 as a
special prosecutor?
[166] A

Yes, sir.

Q
And to be clear, you said that you
testified in the Federal habeas petition during the
Federal habeas hearing you testified; is that right?
A

Yes, sir, I did.

Q
Now additionally there were drug
charges that were taken up federally, separate drug
charges for other individuals after? What was the
timing of that; do you recall?
A

I’m sorry.

MS. IRVING: Objection, Your Honor. I don’t
understand the question.
BY MR. LINGAN:
Q
There were Federal drug charges taken
up by the Federal Courts; is that correct?
A

Subsequent to 2001?

Q

Yes.

A
From my understanding, there was. I
was not involved in it.
Q
You were involved just in the
investigation of this murder and surrounding that?
A

Yes, sir.

Q
And you did not continue on with those
[167] investigations?

App-74
A

No, sir.

MR. LINGAN: Thank you, Your Honor. I don’t
have any further questions.
THE COURT: Anything further on redirect?
MS. IRVING: Not at this time, Your Honor.
THE COURT: Okay. Folks, I’m going to -- thank
you, Detective. You may have a seat back in case one
of the attorneys wishes to call you back.
THE WITNESS: Thank you, Your Honor.
(The witness stood aside.)
THE COURT: I’m going to need to ask you for 10
minutes because it’s three o’clock and I just need to -I’m hopeful we’ll be able to conclude the hearing today.
This was the last motion; is that right?
MS. IRVING: This was the last motion.
THE COURT: Okay. Give me 10 minutes, I’ll
come back and we’ll proceed then. Thank you.
then.
(Recess.)
THE COURT: Okay. We’re back on the record
then.
Ms. Irving, do you have any argument or how
[168] would you like to proceed?
MS. IRVING: Your Honor, in speaking with Mr.
Lingan and reading both of our pleadings, the defense
pleading comes up to the position that this bringing
new charges and the posture of the case as it is, gives
rise to a presumption of vindictiveness.
Obviously the Commonwealth’s motion opposes
that presumption and then goes on to argue that there

App-75
is no actual vindictiveness either. If the Court would
allow us to bifurcate the argument because I think -THE COURT: Sure. That makes sense.
MS. IRVING: Thank you, Your Honor.
Your Honor, the procedural history of this case is
simple. Mr. Wolfe was charged, tried, convicted, went
through his appellate remedies, ran the gamut of them
and on a habeas case the Court found enough
violations in the first trial to warrant an overruling of
those convictions.
They were vacated, it was reversed, remanded
back in Court. The Commonwealth of Virginia is the
party in both of these proceedings. The
Commonwealth in Virginia prosecuted him the first
time. The Commonwealth of Virginia is prosecuting
him again.
[169] The Commonwealth of Virginia saw fit at
the time that he was successful in his appellate
remedies to bring more charges and to bring harsher
penalties. Now there is some argument within the
pleadings as to whether or not there can be harsher
penalties for Mr. Wolfe given that he was sentenced to
execution in the first place.
And I would suggest to Your Honor that there has
never been a case that I’ve ever seen where there is a
constitutional right that is protected for everybody
except the person who is charged with capital murder.
And that is actually what the Commonwealth
would like to see happen here. They say that because
he had this maximum penalty of execution, that the
presumption of vindictiveness doesn’t apply and I
would suggest to the Court that that is an exception

App-76
that is one, not justified; two, there’s no jurisprudence
to suggest that that would be fair.
There’s no history to say that that makes any
sense within the way that the Courts have enacted
and worked hard to protect the rights of the people
that are having charges brought against them that
seek to end their life.
And I would suggest that it ignores really the
[170] procedural posture that we’re at here. It’s
impossible to look at this case without looking at what
happened in the District Court and in the Court of
Appeals.
And I know you’ve heard a lot about this but it is
highly relevant here to recognize that there are
enough rulings that were made in those Courts that
one could see the initial charges as being difficult, if
not impossible, to gain convictions on.
The Courts have found Giglio violations, Nape
violations, Brady violations. They found the
Commonwealth’s investigation of the case to be
lacking. They found the Commonwealth’s disclosure of
what they found in the investigation to be wholly
unsatisfactory under the confines of Brady.
The Federal Courts found that Mr. Wolfe proved
a level of actual innocence that allowed him to
continue on the process to determine whether or not
these violations warranted a remand.
That remand was brought back and it was given
an incredibly short time period to do so. And there is
argument that still continues in the Federal Circuits
as to whether or not those initial three charges can
ever be tried.

App-77
[171] So to suggest because he had the specter of
death the first time, it doesn’t count this time ignores
the fact that there’s the solid chance that those cases
either can’t be tried or can’t be tried in such a way as
to guarantee a conviction or to give a reasonable
likelihood of a conviction.
So what happens after that is that more charges
are brought and the more charges that are brought are
not just in number, there’s this murder aspect of
Danny Petrole that is at issue and there’s this drug
aspect that is also at issue.
And the Courts have in the earlier proceedings, to
some extent, separated them in that there was a
dissenting opinion that maybe originally thought
maybe the drug charge should stand and not the
murder charges.
There’s definitely an investigation into the drugs
that was separate from the investigation into the
murder. It is talked about in the Federal hearings that
there was drug files that were never looked at in the
Federal orders that came down from Judge Jackson.
As well as the Fourth Circuit Court of Appeals
talks about how the Commonwealth hadn’t even
looked into [172] everything that had been done with
regards to the drugs. So you’ve got these two opposing
sides that are moving forward today.
And what happens when this comes back in light
of a scathing opinion is that the Commonwealth brings
more charges. I have a client. He’s charged with three
things, granted one of them seeks the specter of death,
the other two do not.

App-78
The marijuana charge, the Court can take judicial
notice I believe was a five to thirty offense. And the
new charges that come about, while yes, there’s a new
capital murder in a whole new theory, and there’s a
second my client on a felony murder theory.
None of these charges were charged initially.
There’s no evidence that there was any new
investigation that brought forth this new monument
of evidence that would overcome some presumption.
And then you have the drug charges that come up
when these drug charges are not drug charges for
which there’s a new investigation. They’re absolutely
more drug charges than there. They’re absolutely
punished at a higher level than the conspiracy to
distribute marijuana was.
[173] The conspiracy to distribute marijuana is
five to thirty and the 18.2-248(H1) is twenty to life.
The H2 is a life charge unless you cooperate with the
police in which case the Court, in its discretion, can
reduce the sentence down to forty years.
There’s not anything that can be clearer. The
motion as written and filed is not saying that the
prosecutors sitting to my left here are actually
vindictiveness. And I think that’s an important aspect.
The motion that’s filed is saying that the posture
of the case gives rise to this presumption of
vindictiveness. Blackleg is the leading case. It’s a 1974
case. And the case bears some mention here.
It’s a North Carolina case where a prison inmate
had an altercation with another prisoner. He was
charged with a misdemeanor. He’s convicted of a
misdemeanor in District Court. He appealed.

App-79
The prosecutor brought a felony indictment. The
Defendant ended up pleading guilty to the felony
indictment and then brought this vindictive
prosecution claim.
So the issue that the Court argued, that the Court
said was what they needed to rule on was that does
[174] the brining of additional harsher charges when
a Defendant exercises his Constitutional rights to
appeal violate the due process clause of the
Fourteenth Amendment. And it’s very simple.
If you bring additional and harsher charges does
it violate? And the whole thing is that it does. It wasn’t
Constitutional permissible for the State to respond to
his invocation of his statutory right to appeal to bring
a more serious charge against him prior to the trial de
novo.
The Courts, the Supreme Court of the United
States have previously addressed this sort of
vindictive prosecution motion but they had done it
with reference to Judges. They had done it with
reference to harsher sentencing that was happening if
somebody had appealed a case and then was resentenced.
Court’s indulgence. And the descent [sic] in
Blackleg went on to say that what they would have
done in that case was to order a re-sentencing of the
Defendant, not to do a dismissal charge based on the
due process clause.
And the footnote talks in Blackleg and it says that
this were a case involving simple an increased
[175] sentence violative of the Pearce rule. A remand
of the sentencing would be in order.

App-80
The holding today, however, is not that Perry was
denied due process by the length of the sentence
imposed by the Superior Court but rather by the very
institution of the felony indictments against him.
And that’s what’s at issue here, Your Honor. This
is not about what happens from here. This is not about
what they can charge.
It is about whether in our form in the United
States of America, if somebody goes ahead and
exercises their Constitutional rights to appeal, should
they be then subject or scared or somehow hindered in
doing that because the Commonwealth or any state
thereof, any agency, Government agency that charges
will then go and drop the house on them, throw the
book at them, increase the charges, increase the
punishment such that it makes people, at that point,
not want to go forward with this sort of appellate
process for fear of what the retribution is going to be.
And the United States Supreme Court has held
very clearly that this is the standard that they’re at is
that it’s not an individual case by case basis. This is a
[176] flat out, if you’re charged and you win on appeal,
and new charges are brought, it is presumed to be
vindictiveness.
Now I’m not saying that it can’t be overcome but
the very nature, the very institution of new felony
indictments against him, this is what happened, you
had new felony indictments against Pearce. That in
and of itself was enough to be found to be a due process
violation.
This law has since been reiterated in a number of
cases, not many cases where it’s happened that it’s
exactly like Blackleg. I would suggest to Your Honor

App-81
that what we have here is a very similar case to the
Blackleg case.
In fact, when Virginia first reached this case, I
believe it was a case of first impression the Virginia
Courts had in the Barrett case. And I think that was
the first time that our State Courts addressed this
issue and in addressing this issue, they did not find
vindictive prosecution, they did not find that there
was a presumption of vindictive prosecution in that
case but the facts where wholly different.
In that case, there was a drowning of a child and
charges were brought for a manslaughter case and
some [177] felony child neglect cases for the victim
who had been drowned. And the manslaughter case, I
believe if I’m remembering correctly, was found not
guilty at the trial itself, everything else was convicted
and went up on appeal and ultimately the Defendant
was successful in appeal.
The charges were dismissed and then
subsequently she was re-charged. But the difference
was it was a new victim. The parent was not recharged for new charges with regards to the same
person, the same victim that had died. It was with
regard to the sibling that was left there watching the
child in the bathtub.
And the Court held that that was different
because you had a new victim. And that way, the
presumption didn’t come about. It wasn’t the same. So
the Commonwealth goes ahead and they list out a
number of cases where vindictive prosecution was not
found.

App-82
However, Your Honor, these cases are not
analogous. In fact, the vast majority of cases that they
cite are cases that have to do with pleaing.
And the Courts have held that plea negotiations,
it’s perfectly within the Commonwealth’s right to say,
listen, I have five charges against you, [178] plead to
two or I’m going to bring the next ten that I’ve just
found out about or the next ten that I could have
charged in the first place.
Any of that is permissible and the charges in
Goodwin is a plea bargaining case. So that actually
went up to the United States Supreme Court and that
was held that within the context of plea bargaining,
this presumption doesn’t arise.
There are a number of cases -- the Hill case was
also a plea bargaining case. The Barrett case was for
different victims. So in those scenarios, there is no
presumption. Blackleg is the case. Blackleg is the case
that says, if you’re successful on appeal, that’s the
rule.
The rule is, it gives rise to a presumption. And I
think that, Your Honor, there is some good language
in the Duck case because the Commonwealth makes
note, as you heard them ask Detective Newsome,
whose name is on the direct indictments.
And in the first set, obviously it was Mr. Ebert and
in the second set, it was Mr. Morrogh’s name,
insinuating as they say in their papers that there’s no
actual vindictiveness here because Mr. Morrogh was
not the [179] prosecutor at the time.
And I would suggest, Your Honor, that that is
wholly irrelevant. The Duck Court makes mention --

App-83
and actually I’m having trouble finding it right here
but I will before this argument’s over -- that it doesn’t
matter if it is a different prosecutor.
It may make a difference if it’s a different
sovereign and there’s been cases where a State case
was not found to be a vindictive prosecution when it
went up to a Federal case. However, there’s been times
where a State case has been found to be a vindictive
prosecution when it went up to a Federal case, a time
when you have similar parties talking.
I think that comes more on an actual
vindictiveness case. The fact of the matter is, Mr.
Ebert and Mr. Morrogh both represent the
Commonwealth of Virginia, frankly, as does Mr.
Lingan.
If the Court were to carve out a rule that with
different prosecutors there can be no presumption of
vindictiveness, it goes against the Supreme Court’s
rationale that this is -- many of the cases say it has to
be held across for everybody.
The rule is the same for everybody. Now
[180] normally that is the quote when somebody tries
to bring a vindictive prosecution charge and there’s
been -- it hasn’t been more charges or new charges or
harsher charges and they say, it doesn’t fit. It’s got to
be exactly like this for the presumption to arise.
We can’t just presume. The general presumption
is, prosecutors have a wide berth of discretion.
However, this is a Constitutional right. Mr. Wolfe had
a Constitutional right to appeal his charges. He had a
Constitutional right to go up to the State Courts, to
the Federal Courts to get his habeas relief that he was
granted.

App-84
And then when he got back down here, what
happened was he got new charges. That’s enough to
put it within Blackleg and it is irrelevant as to who did
it. We’re still within the same sovereign. It is still the
Commonwealth of Virginia versus Justin Wolfe.
The fact that Mr. Morrogh generally practices out
of Fairfax is irrelevant. Mr. Morrogh was actually
appointed to be a prosecutor in Prince William
County. Even if this Court were to find that because
it’s different people, the Court would have to
acknowledge that prosecutors are substituted out all
the time.
[181] We certainly couldn’t have a case where one
prosecutor handles a case in District Court and
another prosecutor handles it in Circuit Court and
brings the additional charges and says well, you know,
that was Ms. Sylvester’s case so there’s no
vindictiveness here.
I didn’t handle it down there. The Courts have
found that that’s not appropriate. The way the posture
of this case stands right now, Mr. Morrogh is assigned
to be a special prosecutor for Prince William County.
The Commonwealth of Virginia is the same
statewide. Mr. Wolfe exercised his Constitutional
rights and the scenario we find ourselves falls directly
under Blackleg. And it doesn’t have to simply be a
higher punishment.
And I think it’s important to note, it can also be a
cumulative effect. It can also be the fact that there’s a
lot more charges here, although I would suggest, Your
Honor, that -- I would suggest, Your Honor, that all six
charges come are deserving to be dismissed if they

App-85
cannot rebut the presumption that is laid out on the
posture of the case.
But if the Court were not inclined to do that,
[182] I would suggest that if nothing else, the drug
charges should go because this conspiracy to commit
-- be involved in this criminal enterprise, the
Commonwealth said earlier, it all stems from the
same conduct.
And they said it in their last motion that was done
with Mr. MacMahon that all of these things -- on Page
4 of their brief, all these charges stems from that same
conduct that was initially charged.
This isn’t new stuff. That’s what they said. That’s
in their briefing. It’s not new. In fact, I think Mr.
Lingan argued that in the last motion when he was
talking about why the testimony should be admitted
for all of the charges.
Well it’s all the same conduct. Well they can’t have
it both ways. If it’s all the same conduct there, it’s all
the same conduct here. And it wasn’t charged first. It
was charged after appeal.
And it’s the same sovereignty, it’s the same
County, it’s the same prosecutors, the same
Commonwealth of Virginia and he was granted
Constitutional relief.
I would ask Your Honor to find that based on
these facts and this motion, the presumption of
vindictiveness arises and I would ask Your Honor to
have [183] the Commonwealth have the burden of
moving forward.
THE COURT: Thank you, Ms. Irving.
Mr. Lingan.

App-86
MR. LINGAN: Well Your Honor, I’m going back to
the prior, not too far back from today, but it sounds
like we can agree that these all are resulting from the
same conduct and thus, counsel’s prior argument and
the motion to exclude prior testimony, that it’s not
covered in turn for cross examination, it appears they
conceded because that’s -- the Commonwealth has -MS. IRVING: Clearly I would object to that, Your
Honor.
THE COURT: I understand. This is argument and
I acknowledge they don’t agree with the concession.
MR. LINGAN: I would just point out that we’re
being accused of arguing both ways and in fact, we’ve
been consistent throughout. I would submit that that
argument flies in the face of argument that was
presented to the Court about three hours ago.
But what I would suggest to the Court is, and I
don’t have much beyond the pleadings, Your Honor, is
that there is no presumption in this case.
I think the Court cannot be -- I think in the
[184] Duck case, as I re-read it, and certainly was cited
in both pleadings so I’m sure the Court is aware, but I
think that’s a situation where it was appealed on a
DUOS from the General District Court and I think
that Commonwealth’s office may not be in General
District Court proceedings and thus the argument was
because the Commonwealth wasn’t involved below in
the General District Court this trial de novo, which
again, Blackleg and all these other cases talk about
appeal de novo and trial de novo after a prior
proceeding.

App-87
So I think that was the argument that Ms. Irving
was looking for in terms of a different Commonwealth.
But in that case, it’s the same office.
In this case, I think it cannot be ignored the
procedural history of this case and the argument the
Court has already heard and ruled upon in making
certain rulings in this case.
If you recall, and I know it can’t be easily
forgotten, there was a tedious long drawn out motion
to get Mr. Morrogh and myself kicked off the case, to
have our appointment rescinded and to have the Court
appoint a new prosecutor’s office.
Through that, I would submit, and I know prior
[185] counsel -- it was largely on prior counsel’s motion
but through that motion, it was suggested that Mr.
Morrogh and I guess our office and myself were not
acting independently and we were not sufficient, I
guess, or that we were somehow tied to the Prince
William office.
And the Court found otherwise. The Court found
that we were sufficiently independent and we had
exercised our independent assessment of the case. As
the Court will recall, there was a lot of mention about
the bond motion and about the statements
presumably made by Mr. Morrogh about the
Defendant’s guilt and the Court found that it was on
Mr. Morrogh’s own assessment.
And that’s what this is. This is a different posture
than the case appealed de novo where a
Commonwealth Attorney is coming in for the first
time. This is a case where the Commonwealth, as a
special prosecutor, has been appointed to prosecutor

App-88
the case as he sees fit and to continue the prosecution
how he sees fit.
And that’s what was done in this case and that’s
the only thing the record supports. Mr. Morrogh and
myself didn’t have any involvement in the prior trial
at all. The first involvement was after the Court’s
[186] appointment and the Court has found and
there’s been no evidence to suggest otherwise.
Additionally, on the face of these charges, Your
Honor, they’re not more severe than the charges he
faced on the original charges. He faced the death
penalty on the original charges. And I would be remiss
if I didn’t point out in these cases, defense counsel
always point out the significance of what death
entails.
Death is the most severe punishment. Death is
different. We hear that over and over again until
there’s a motion for prosecutorial vindictiveness in
which there’s a suggestion that somehow these other
additional charges increase the potential for exposure.
That’s just not the case.
The penalty is the same. And in fact, one of the
indicted charges is felon first degree murder in the
commission of a robbery which is actually a lesser
penalty than the death penalty or exposure.
And I would submit to the Court that this was
nothing more, and the record supports it, that this was
nothing more than an independent evaluation of these
cases and the facts as this special prosecutor saw fit
and that this is not vindictiveness in anyway and
there is no [187] presumption.

App-89
There is no exposure to which he was not exposed
before. Any other sentences would be cumulative to
the harshest sentence that is allowed for under these
new charges and the old charges which is death.
So I submit to the Court that the standard is not
-- it’s just not been met that would give rise to a
presumption of vindictiveness. Beyond that, Your
Honor, I would submit on the pleadings.
Again, nothing has been presented to carry the
burden to create a presumption in this case that
there’s vindictiveness in these new charges. I submit
to the Court that this motion should be denied on its
face.
THE COURT: Thank you, Mr. Lingan.
Ms. Irving.
MS. IRVING: Well Your Honor, as promised I
found what I was looking for in Duck if I may. Under
the first paragraph under Roman numeral three, the
court states, “The Commonwealth argues that in the
case before us since the Commonwealth Attorney
didn’t participate in the General District Court trial,
no evidence of vindictiveness was induced in the
Circuit Court trial.
Blackleg does not bar amendment of the warrant
[188] in the Circuit Court. We disagree.” It’s the same
kind of argument. We had nothing to do with it
downstairs so now we’re coming in and there’s no real
analogy to Blackleg.
And I would suggest to the Court that the concept
that this prosecutor’s office is somehow shielded from
any claim of vindictive prosecution is taken care of in
this.

App-90
Not only does the Court say in Duck that they
disagree with that assertion but it makes sense that
that’s not the way this goes which would mean that
anytime somebody appeals a case, is granted relief on
appeal, the Commonwealth can come bring in new
charges, just get a special prosecutor.
Find a reason you cant’ [sic] do it, get a special
prosecutor from a new jurisdiction and then hammer
them. That’s not the way this goes. That’s not -- there’s
no Court that thinks that’s going to be appropriate and
I would suggest, Your Honor, that that argument is
wholly without merit.
The argument that because this is a capital case
and there is no greater harsher punishment is also
without merit although it takes a little bit more
thinking [189] through.
The reason it’s without merit and the reason that
this Court needs to hold that the rule as stated, is that
there’s a presumption when you win -- when you are
convicted, you win on appeal and you come back and
there’s more charges and some with harsher penalties.
The reason there’s that black line shift of
presumption is because of this. In the initial charging
case where my client was convicted, you had one
person, one person, Owen Barber, say that he was the
one who hired him.
Everything else was circumstantial and Paul
Ebert says in Owen Barber’s sentencing that without
Owen Barber, Justin Wolfe likely would not have been
prosecuted.
The case takes its toll up through the Appellate
Courts. The habeas, the Federal Courts hear evidence.

App-91
There’s a huge evidentiary hearing in which Owen
Barber says that that is not true.
I said it because that’s what you all wanted to
hear. I said that because I wanted a break on my own
charges. I said it because frankly I didn’t want to be
the one facing death.
[190] That’s the testimony that’s there. Now that’s
completely inconsistent with what he said in the first
trial clearly. And there are a couple of different times
in the course of this investigation where Mr. Barber
has (unintelligible) testimony.
But the fact is the person that says Justin Wolfe
did this is Owen Barber who is, at this point, either an
unavailable witness or a wholly incredible witness and
being able to go forward on these charges per the
Commonwealth’s own admission at Owen Barber’s
sentencing, without him is really, really going to be
tough if not impossible.
And I would suggest to the Court that everybody
who’s been reading these cases, certainly all of the
lawyers involved, know that there is not another
eyewitness who says Justin Wolfe did this.
There’s not going to be somebody else who puts
him there. I’ve got a list of people to interview and I
don’t have a single person but Owen Barber who has
ever said that he had something to do with the
murder.
But Owen Barber now becomes either unavailable
or incredible making a prosecution on this murder
unlikely. So what we really have here is if you
separate [191] that out and you assume there’s a

App-92
chance that they lose this capital murder or the
murder case, you’ve got this drug conspiracy going on.
Well if this case were charged simply with the
conspiracy to distribute marijuana, we would be
looking at a five to thirty offense. And I would say the
Federal Courts, and I think it’s appropriate, at the
time that you dismiss and separate out the murder
conviction and the firearms charges go as well.
They are completely and totally related. There’s
nobody who says Mr. Wolfe had a firearm. There’s no
-- I’ve never seen any evidence of that. I’m not through
all 17,000 pages and 56 CDs but my investigation
doesn’t show any of that.
So what we’re left with are drug charges. And by
the Commonwealth’s argument, they can charge
everything they want on the drugs because you know,
he could get executed for the murder so there’s no
greater punishment. Well that’s not true because we
all know there’s the solid chance he doesn’t -- the
murder charge goes nowhere. I don’t think they have
an eyewitness. I don’t think they have an evidence to
it.
I don’t think they have anything supporting
[192] it. And I think that at the end of this, that’s going
to be the result.
So what do we have? Conspiracy to distribute
marijuana from twelve years ago or continuing
criminal enterprise which has a life sentence. And
what they’ve done is they’ve charged him with
something that, if convicted on, he stays exactly where
he is for the rest of his natural born life and that
satisfies them.

App-93
Nobody else is charged with this and I would
suggest that probably goes more towards whether or
not there’s actual vindictiveness and not whether or
not the presumption exists.
But in talking through whether or not the Court
should find a presumption exists, to say we can just
charge a capital murder charge and if there’s no
evidence there, we’re going to add on all of these drug
charges because if we don’t get him over here, we can
get him over there, but there’s no presumption against
vindictiveness because he was facing the full specter
of punishment to begin with and he is now, is to
completely ignore the rationale in the Federal courts
is to ignore the rationale that the Supreme Court has
said that that squelches somebody’s right to avail
themselves of all their possible [193] remedies.
Clearly we’re not going to punish people in the
United States of America for exercising a right that
they are Constitutionally permissible to exercise.
It seems to be incredulous to me that the idea that
because he was charged with capital murder and he’s
still facing capital murder charges, there can now be
no presumption of prosecutorial vindictiveness when
what we have here is obviously a scenario that if they
lose on the murder, they go forward on the drugs.
And if they win on the drugs, they’re still at life
because the charges they brought on the drugs, which
are rising from the same conduct according to the
prosecutors that they had back 12 years ago, was not
brought then, it’s brought only now and it’s brought
after a successful appeal.
That, Your Honor, is what the Courts have said is
not permitted. That gives rise to prosecutorial

App-94
vindictiveness and that puts the burden on them to
show why these charges should be permitted to go
forward and I’d ask Your Honor to require them to do
that.
THE COURT: Thank you, Ms. Irving.
(Pause.)
[194] THE COURT: Counsel is correct, it’s a two
part analysis in this case and the question is whether
the indictments should be dismissed based on
prosecutorial vindictiveness with the subset question
being has there been a prima facie case shown of
prosecutorial vindictiveness and I do not find there
has been.
I agree with the defense that it’s immaterial for
the analysis that it is a different prosecutor however,
I do find the cases to be helpful in this issue,
particularly Blackleg and Barrett.
I don’t think it’s appropriate for the Court to
analyze the strength of the Commonwealth’s case at
this level. These are charges. I look at the charges on
their face and the Defendant was facing charges
punishable by death.
The Commonwealth brought additional charges,
not enhanced charges. And the prohibition is against
enhanced charges. For example, if the Defendant had
been convicted of first degree murder and the
Commonwealth brought indictments for capital
murder, that in my view, would meet the presumption.
But under the charges which were brought before
and the charges which have been brought now, I do
[195] not find the prosecutorial vindictiveness

App-95
threshold showing which would require
Commonwealth to rebut that presumption.

the

Now there are two other motions that are before
me. I’m going to ask you all for five minutes and I’ll be
happy to come back and give you a ruling on those two
motions.
MS. IRVING: Your Honor, may I ask that the
Court -- finding that there’s presumption, we would
move into an actual vindictiveness analysis and I’m
happy to do that on another day.
THE COURT: No, I found that -- oh, on an actual
vindictiveness -MS. IRVING: Yes, Your Honor.
THE COURT: Oh, I see. You want to show the
actual vindictiveness.
MS. IRVING: Yes, Your Honor.
THE COURT: Yes. We can keep going now for
awhile if you want.
What’s your preference?
MS. IRVING: I have -- given the Commonwealth
wants to play snippets of video, I have multiple
multiple videos that are relevant. I’m wondering if it
wouldn’t be [196] wise to go ahead and do this on the
18th. We’ve already got that day set.
I don’t think that what we have planned for that
-- and part of that is one of the videos that we would
play has to do with that same video that would be
played for the September 11th, for the continuing
prosecutorial misconduct.

App-96
THE COURT: That makes -- yes, I’m sorry. I had
drawn a blank. You did have that motion. I had it in
my head that that was going to be on the 18th as well.
But Mr. Lingan, Mr. Morrogh, any view on that?
MR. LINGAN: That’s fine, Your Honor. * * *
[203] THE COURT: I’m not ready -- I’m not ready
to advise you on rulings on things that haven’t been
filed or argued. So I’ll give you the rulings on the
matters that I’ve heard today but I think in fairness to
both sides, and really to me, you need to file specific
motions asking for evidentiary rulings.
MS. IRVING: Okay. Yes, Your Honor.
MR. MACMAHON: Your Honor, note our
exceptions to the adverse rulings. We’ll get it on the
order as well.
THE COURT: Sure. Sure.
And I presume the Commonwealth as well?
MR. MORROGH: Yes, Your Honor.
THE COURT: Okay.
MR. LINGAN: Though our exceptions usually
don’t matter.
THE COURT: Okay. * * *

App-97
Appendix G
VIRGINIA
CIRCUIT COURT OF
PRINCE WILLIAM COUNTY
________________
Nos.: CR12003732-00 through CR12003737-00,
CR05050489-01, CR05050490-01 & CR05050703-01
________________
COMMONWEALTH OF VIRGINIA,
vs.
JUSTIN MICHAEL WOLFE,
Defendant.
________________
Filed October 23, 2014
Hon. Mary Grace O’Brien
Hearing: November 5, 2014
JW-106
________________
MOTION TO RECONSIDER JW-2012-31 TO
DISMISS INDICTMENTS CONSTITUTING A
VINDICTIVE PROSECUTION
COMES NOW the Defendant. Justin Michael
Wolfe, by counsel Kimberly A. Irving, Edward B.
MacMahon, Jr., and Michael D. Lasher and hereby
respectfully gives notice that on the November 5, 2014,
or as soon thereafter as counsel may be heard, he will
move this Court to reconsider JW-2012-31 to Dismiss
Indictments Constituting a Vindictive Prosecution. In
making this Motion, Mr. Wolfe relies upon his rights
to be free from cruel and unusual punishment, to due

App-98
process, to a fair trial, to effective assistance of
counsel, to investigate, to present a defense, a call
witnesses on his own behalf, to confront witnesses
against him, to a reliable sentencing determination,
and to equal protection pursuant to the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United
States Constitution; Article I, § 8, 9, 10, and 11 of the
Virginia Constitution; Va. Code §§ 19.2-164, 19.2-166,
19.2-332, 19.2-164; and other authorities cited herein.
Introduction
The Commonwealth must articulate a legitimate
reason why the indictments brought against Justin
Wolfe on October 1, 2012 must not be dismissed
because Mr. Wolfe has established a prima facie case
of vindictive prosecution in violation of the Due
Process Clause of the Fourteenth Amendment. Due
process requires that a defendant who has
successfully challenged his conviction must not be
subjected to harsher charges or penalties as a
consequence. Blackledge v. Perry, 417 U.S. 21 (1974).
“To punish a person because he has done what the law
plainly allows him to do is a due process violation of
the most basic sort.” Bordenhicker v. Hayes, 434 U.S.
357, 363 (1978). Yet after a successful appeal which
excoriated the Commonwealth Attorneys 1, Mr. Wolfe
was indicted for the first time, eleven years after the
alleged crimes, with six charges that include the
possibility of a mandatory life-sentence: (1) Virginia
Code section 18.2-31 (10) (capital murder under the
theory of premeditated killing as part of a Continuing
Criminal Enterprise; CR 12003732-00); (2) Virginia
1

Wolfe v. Clarke, 819 F.Supp.2d 538, 574 (E.D. Va. 2011).

App-99
Code section 18.2-248 (H1) (marijuana distribution as
part of a Continuing Criminal Enterprise CR
12003734-00); (3) Virginia Code section 18.2-248 (H2)
(marijuana distribution as part of a Continuing
Criminal Enterprise, which carries a life term; CR
12003735-00); (4) Virginia Code section 18.2-32 (felony
murder); and (5) two counts of Virginia Code section
18.2-53.1 (use or display of a firearm in the
commission of a felony (robbery)).
Under federal and Virginia jurisprudence, these
facts alone are enough to indicate a prima facie case of
vindictiveness, requiring the Commonwealth to
articulate a legitimate reason for why the new
indictments were brought after a successful appeal.
JW-2012-31 was argued on December 10, 2012.
However, none of the parties, including this Court,
considered the clear language of binding Virginia
precedent. Despite being cited in both parties’
pleadings and oral arguments, nobody referred to
critical language in Duck v. Commonwealth, 8 Va.App.
567, 572-573 (1989), which directly contradicts this
Court’s ruling. Specifically, this Court ruled that
because Mr. Wolfe faced a death sentence both in 2001
and 2012, the six recently filed indictments did not
increase his sentence and thus no prima facie case of
vindictiveness had been shown. Yet as Duck makes
clear, the new charges must also not expose a
successful appellant to an increased minimum
sentence. Duck v. Commonwealth, 8 Va.App. 567, 572573 (1989). In other words, Duck, like the
jurisprudence in many other state and federal courts,
makes clear that the totality of the circumstances
must be assessed in determining whether a defendant

App-100
has made a prima facie showing of vindictiveness,
which would require the proseuction [sic] to provide
legitimate reasons why the additional charges were
brought for the first time after a successful appeal.
Legal Argument
During
argument
on
JW-2012-31,
the
Commonwealth erroneously claimed that the state
does not “up the ante” on an indictment if the
additional charges do not raise the potential
maximum sentence. “There is no exposure to which
[Wolfe] was not exposed before. Any other sentence
would be cumulative to the harshest sentences that is
allowed under these new charges and the old charges
which is death. So I submit to the Court that the
standard is not—it’s just not been met that would give
rise to a presumption of vindictiveness.” Tr:187.2-8.
Dec. 10, 2012.
This Court accepted this argument: “The
Commonwealth brought additional charges, not
enhanced charges. And the prohibition is against
enhanced charges. For example, if the Defendant had
been convicted of first degree murder and the
Commonwealth brought indictments for capital
murder, that in my view, would meet the presumption.
But under the charges which were brought, before and
the charges which have been brought now, I do not
find the prosecutorial vindictiveness threshold
showing which would require the Commonwealth to
rebut the presumption.” Tr: 194.17-195.3. Yet this
rationale is directly contrary to the clear holdings of
Blackledge and Duck.
The Supreme Court in Blackledge v. Perry, 417
U.S. 21 (1974) described the rough framework to

App-101
assess whether the addition of additional charges
after a successful appeal amounted to a vindictive
prosecution. Because a defendant must be free from
the fear of an increased sentence merely for exercising
his constitutional right to appeal a conviction, the
Court held that any attempt to “up the ante” on a
potential new sentence was enough to create a prima
facie case that the prosecutor was acting vindictively
after a successful appeal. Id. at 27-28 citing Pearce,
395 U.S. at 725. “‘Prosecutorial vindictiveness’ is a
term of art with a precise and limited meaning. The
term refers to a situation in which the government
acts against a defendant in response to the defendant’s
prior exercise of constitutional or statutory rights. See
United States v. Goodwin, 457 U.S. 368, 372, 73 L.Ed.
74, 102 S.Ct. 2485 (1982). In other words, a
prosecutorial action is “vindictive” only if designed to
penalize a defendant for invoking legally protected
rights.” (US. v. Meyer, 810 F.2d 1242, 1246 (D.C. Cir.
1987).) Thus, where a defendant can show a “realistic
likelihood of vindictiveness,” a defendant has created
a prima facie case that his Due Process rights were
violated. The burden then shifts to the prosecution to
come forward with objective evidence justifying the
filing of additional charges after a successful appeal.
Id. at 27. Such objective evidence of a good faith reason
might include that additional charges were levied to
cure a valid oversight; that more serious charges could
not have been brought at the outset because, say, the
assault victim died after the appeal; or to reflect the
common understanding of the parties. In sum, “‘To
punish a person because he has done what the law
plainly allows him to do is a due process violation ‘of
the most basic sort.’ ... For while an individual

App-102
certainly may be penalized for violating the law, he
just as certainly may not be punished for exercising a
protected statutory or constitutional right.” Goodwin,
supra, 457 U.S. at 372.
Interpreting Blackledge’s “upping the ante”
analysis, the Virginia courts have unequivocally
stated that a new sentence need not be greater than
the harshest sentence for an indictment to be
vindictive, a rule that directly contradicts this Court’s
rationale during the prior hearing. As clearly
explicated in Duck v. Commonwealth, an increase in
the maximum possible sentence is not the only
determining factor as to whether a prosecutor has
“upped the ante.” 8 Va. App. 567 (1989). In Duck, a
defendant’s first DUI misdemeanor conviction was
overturned on appeal, and at his second trial an
additional felony indictment for DUI was added. The
court held that, although the addition of the felony did
not increase the maximum sentence Duck faced, the
increased maximum sentence was not the only factor
to be considered in weighing the likelihood of
vindictiveness. Id. at 572. Duck stated:
An increased minimum potential period
of incarceration can have the same
chilling effect on a defendant’s exercise
of his statutory right to appeal as an
increased maximum potential period. In
either case, the defendant is exposed to an
increased penalty range because he has
exercised his right to appeal. Under the facts
presented here, since Duck faced a minimum
jail sentence of one month under the amended
charge, but was not required to receive a

App-103
minimum jail sentence on the original charge
in the general district court, we find that he
faced “a more serious charge” in the circuit
court as a direct result of exercising his
statutory right to a trial de novo. For this
reason, his due process rights were violated
and his conviction must be reversed. Id. at
573 (emphasis added).
In other words, because the new charges exposed
Duck to an increased minimum sentence, a prima
facie case of a “realistic likelihood of vindictiveness”
was established, requiring the prosecution to state a
legitimate reason for the filing of the new charges. Id.
Thus, contrary to this Court’s ruling, Duck made clear
that the maximum sentence which a defendant may
receive is not the only factor in finding that a prima
facie case of vindictiveness has been established. In
sum, Duck stands for the proposition that the totality
of the circumstances must be assessed in determining
whether a defendant has made a prima facie showing
of vindictiveness.
Consistent with the broad due process principle of
fairness, other jurisdictions also make clear that a
prima facie case of vindictiveness can be established
by looking at factors other than merely whether the
maximum sentence is increased as a result of
additional charges. US. v. Meyer, 810 F.2d 1242, 1246
(D.C. Cir. 1987) involved a group of protesters who
were arrested outside the White House demonstrating
without a permit and who had an additional charge
leveled in retaliation for a trial demand. Id. at 1243.
Despite not facing a greater maximum sentence due to
the new charges, the court, using a totality of the

App-104
circumstances assessment, found that the actions of
the prosecution raised a realistic likelihood of
vindictiveness. Id. Although the additional charge did
not “up the ante” by exposing the defendants to a
greater sentence, the court looked to other factors in
determining whether a prima facie case of
vindictiveness was established. Id. at 1246. These
other factors included, among others, whether there is
proof of disparate treatment of other defendants in the
case and the state’s “motivation to act vindictively.”
Id. at 1246-48. Though taken separately, these
circumstances alone might not raise a likelihood of
vindictiveness,
but
taken
together,
these
considerations were suggestive of vindictiveness. Id.
at 1246.
Relying on Meyer, US. v. Doran, 882 F.2d 1511,
1520 (10th Cir. 1989) held that to “provide a wellgrounded assessment of the ‘realistic likelihood of
vindictiveness’,” a court must examine “‘the totality of
the circumstances surrounding the prosecutorial
decision at issue.’ United States v. Griffin, 617 F.2d
1342, 1347 (9th Cir. 1980).” Also relying on Meyer,
State v. Tsosie, 171 Ariz. 683, 687 (App.1992), also
adopted a totality of the circumstances test:
Courts of other jurisdictions, including the
Arizona Supreme Court, have adopted this
‘totality of the circumstances’ test. See State
v. Noriega, 142 Ariz. 474, 486, 690 P.2d 775,
787 (1984) (presumption of prosecutorial
vindictiveness applies if there is a realistic
likelihood of vindictiveness in the decision to
reindict a criminal defendant); United States
v. Heldt, 745 F.2d 1275, 1280 (9th Cir. 1984)

App-105
(mere appearance of vindictiveness gives rise
to a presumption of vindictive motive); United
States v. Krezdorn, 718 F .2d 1360, 1364-65
(5th Cir. 1983 ), cert. denied, 465 U.S. 1066,
104 S.Ct. 1416, 79 L.Ed.2d 742 (1984) (in
measuring cases alleging vindictiveness,
proper solution is not to be found by
classifying prosecutorial decisions as being
made pre- or post-trial); United States v.
Gallegos-Curiel, 681 F.2d 1164, 1168 (9th Cir.
1982) (to establish a claim of vindictive
prosecution, the defendant must make an
initial showing that charges of increased
severity were filed because the accused
exercised a statutory, procedural, or
constitutional right in circumstances that
give rise to an appearance of vindictiveness).
We agree with the Meyer court that the
critical question in a pretrial setting is
whether the defendant has shown 'that all of
the circumstances, when taken together,
support a realistic likelihood of vindictiveness
and therefore give rise to a presumption’.
As the court stated in United States v. Wilson, 262
F.3d 305, 314 (4th Cir. 2001): “If the defendant is
unable to prove an improper motive with direct
evidence, he may still present evidence of
circumstances from which an improper vindictive
motive may be presumed” “Thus, a change in the
charging decision made after an initial trial is
completed is much more likely to be improperly
motivated than a pretrial decision.” Id. at 315 (quoting
United States v. Goodwin, 457 U.S. 368,381 (1993)).
“Moreover, like Goodwin, the facts surrounding the

App-106
charging decision are different from those in the
typical case in which a presumption of vindictiveness
arises. Typically, in that type of case, at the time the
prosecutor initially tried the defendant the decision
was made not to try the defendant on an additional
available charge later brought only after the
defendant’s successful appeal. In that situation,
unlike in Goodwin or here, an inference may be drawn
that the prosecutor’s decisionmaking was influenced
by the only material fact different the second time
around—the defendant’s successful appeal of his
original conviction.” Id. at 319.
Consistent with broad due process principles.
other courts do not woodenly look only at the
maximum exposure that additional charges bring. The
fact of additional charges themselves may be enough
to trigger a presumption of vindictiveness.
“[G]enerally, a potentially vindictive superseding
indictment must add additional charges or substitute
more severe charges based on the same conduct
charged less heavily in the first indictment.” United
States v. Hill, 93 F. App’x 540, 546 (4th Cir. 2004)
(quoting United States v. Suarez, 263 F .3d 468, 480
(6th Cir. 2001) (citation omitted)). “Blackledge
unequivocally assures a prisoner of his right to appeal
without fear that the prosecutor will retaliate with a
more serious charge if the original conviction is
reversed. Therefore, instead of simply assessing the
prosecutor’s knowledge at the time the original
indictment was returned, as the government suggests,
we must examine all circumstances of Johnson’s
situation.” United States v. Johnson, 537 F.2d 1170,
1173 (4th Cir. 1976) (emphasis added).

App-107
In this case, there is clearly a “realistic likelihood
of vindictiveness” given the totality of the
circumstances. As in Meyer, in this case Mr. Wolfe has
been singled out for disparate treatment. No other
defendant alleged to be in the Continuing Criminal
Enterprise has faced a life term. In fact, Mr. Petrole’s
roommate, in whose house was found one half a
million dollars in cash and narcotics, has already
served his entire sentence. As in Meyer, in this case
the additional charges are likely motivated by the
federal court opinions which were extremely critical of
the Commonwealth. (Wolfe, supra, 819 F. Supp. 2d
538,574 (E.D. Va. 2011).) In fact, on September 11,
2012, Mr. Ebert and Mr. Conway told Owen Barber
that the reversal had damaged their reputations and
resulted in personal repercussions, clearly raising the
specter of vindictiveness. Finally, the Commonwealth
has “upped the ante” in terms of the sheer volume of
additional witnesses it plans to present at this trial.
Unlike the 2002 trial, in this trial the Commonwealth
plans to present the testimony of the 62 people it
alleges participated in the Continuing Criminal
Enterprise, despite that the Commonwealth could
have called all of these witnesses in the first trial but
did not. (See Commonwealth’s Answer to the Court
Ordered Bill of Particulars Pursuant to Virginia Code
section 19.2-230, dated December 4, 2012.) As well, in
the first trial, the Commonwealth called only one
witness (Mrs. Valatka) to testify to aggravating
evidence. In this trial, the Commonwealth has filed a
notice of 12 separate instances, some with multiple
sub-parts, of Unadjudicated Criminal Conduct. (See
Commonwealth’s Notice of Intent to Present Evidence
of Unadjudicated Criminal Conduct Pursuant to

App-108
Virginia Code section 19.2-264.3:2.) In these
circumstances, Mr. Wolfe has clearly established a
prima facie case of a reasonable likelihood of
vindictiveness. Thus, this Court must order the
Commonwealth to provide a legitimate explanation
for why the additional indictments were filed.
CONCLUSION
WHEREFORE, the Defendant, Justin Michael
Wolfe, moves this Court to require the Commonwealth
to provide a legitimate explanation for why the six
additional charges were filed 11 years after the alleged
crimes and after Mr. Wolfe was successful in his
appeals.
Respectfully submitted,
s/Kimberly A. Irving
Virginia Bar Number 45498
9001 Center Street
Manassas, VA 20110
(703) 530-9001 Telephone
(703) 530-8555 Facsimile
Kimberly@irving-irving.com
***

App-109
Appendix H
12-3736 [handwritten]
________________
Filed March 29, 2016
________________
PLEA OF GUILTY TO A FELONY
1. My name is Justin Michael Wolfe and my age
is 35 years.
2. I am represented by Counsel whose names are
Joseph Flood, Daniel Lopez, and Bernadette
Donovan and I am satisfied with their services as an
attorney.
3. I have received a copy of the indictments before
being called upon to plead and have read and
discussed them with my attorneys and believe that I
understand the charges against me in this case. I am
the person named in the indictments. I have told my
attorneys all the facts and circumstances, as known to
me, concerning the case against me. My attorneys
have discussed with me the nature and elements of the
offenses and has advised me as to any possible
defenses I might have in this case. I have had ample
time to discuss the case and all possible defenses with
my attorneys.
4. My attorney has advised me that the
punishment which the law provides is as follows: A
maximum of Life imprisonment and a minimum
of 20 years imprisonment, and a fine of not more
than $100,000.00, or both, also that probation may
or may not be granted; and that if I plead guilty to
more than one offense, the Court may order the

App-110
sentences to be served consecutively, that is, one after
another.
4a. I understand that if the Court sentences me to
a term of incarceration, it may impose an additional
term of not less than six months nor more than three
years, all of which shall be suspended, conditioned
upon successful completion of a period of post release
supervision.
5. I understand that I may, if I so choose, plead
“Not Guilty” to any charge against me, and that if I do
plead “Not Guilty’’, the constitution guarantees me
(a) the right to a speedy and public trial by jury; (b) the
process of the Court to compel the production of any
evidence and attendance of witnesses in my behalf;
(c) the right to have the assistance of a lawyer at all
stages of the proceedings; (d) the right against selfincrimination; and (e) the right to confront and crossexamine all witnesses against me.
6. I understand that by pleading guilty I waive my
right to an appeal and that I am admitting that I
committed the offense as charged. I further
understand and agree that upon my plea of guilty, I
will be found guilty and that the only issue to be
decided by the Court is punishment.
7. The following plea agreement is submitted:
a. Defendant will be found guilty and
will be sentenced to a total term of active
incarceration of not less than 29 years and
no more than 41 years for all charges to
which he is pleading guilty (CR05050703-0l,
CR05050490-01, CR12003736-00); and

App-111
b. All other terms and conditions of the
sentence,
including
suspended
incarceration and probation, shall be
determined by the court; and
c. Defendant will receive full credit for
time served, as calculated by the Virginia
Dep’t of Corrections. It is the parties
intention that Mr. Wolfe receive credit in
this case for all time he has served in any
jail, penitentiary or other facility in the
Commonwealth of Virginia pursuant to
charges
CR05050703-0l,
CR05050490-0l,
CR05050489-0l, CR05050702-00 (previously
nolle prosseuied on January 7, 2002); and
d. Defendant will submit to the Court a·
written explanation signed by Defendant as
to the nature of his involvement in the
murder of Daniel Petrole and will be
questioned under oath by the Court as to the
authenticity and accuracy of the written
statement; and
e. The Commonwealth will not prosecute
Defendant for any other offenses arising out
of Defendant’s written statement referenced
above
including
perjury
related
to
Defendant’s testimony at the original trial of
this matter; and its investigation and court
proceedings, including any allegation of
perjury, and
f. The Commonwealth will nolle
prosequi CR05050489-0l, CR12003732-00,
CR12003733-00, CR12003734-00, CR12003735-

App-112
00, CR12003737-00 once the plea is accepted
by the Court.
8. I understand that the Court may accept or
reject the agreement. I understand that this plea
agreement is not binding upon the Court and should
the Court not accept this agreement, the parties may
withdraw from this agreement and/ or the plea of
guilty.
9. I declare that no officer or employee of the State
or County or Commonwealth’s Attorney’s Office, or
anyone else, has made any promises to me that I
would receive a lighter sentence or probation if I would
plead guilty. In addition, no one has threatened me
and thereby caused or influenced me to plead guilty.
10. I understand that if I am not a United States
citizen, I may be subject to deportation/removal
pursuant to the laws and regulations governing the
United
States
Immigration
and
Customs
Enforcement.
11. After having discussed the matter with my
attorney, I do freely and voluntarily plead guilty to the
offense of First Degree Murder, VA Code § 18.2-32,
CR12003736-00, and waive my right to a trial by jury
and request the Court to hear all matters of law and
fact.
Signed by me in the presence of my attorney this
22nd day of March, 2016.
s/Justin Wolfe
Defendant
CERTIFICATE OF DEFENDANT’S COUNSEL
The undersigned attorney for the above-named
Defendant, after having made a thorough

App-113
investigation of the facts relating to this case, do
certify that I have explained to the Defendant the
charges in this case and that the Defendant’s plea of
guilty is voluntarily and understandingly made.
s/Bernadette Donovan
Attorney for Defendant
CERTIFICATE OF
COMMONWEALTH’S ATTORNEY
The above accords with my understanding of the
facts in this case.
s/Raymond F. Morrogh
Attorney for the Commonwealth
The Court being of the opinion that the plea of
guilty and waiver of jury are voluntarily made,
understanding the nature of the charges and the
consequences of said plea of guilty and waiver, doth
accept same and concur.
Filed and made a part of the record this 29 day of
March, 2016.
Judge

s/Carroll A. Weimer, Jr.

App-114
Appendix I
RULES OF SUPREME COURT OF VIRGINIA
Part Five A
The Court of Appeals
F. Procedure Following Perfection of Appeal
Rule 5A:18. Preservation of Issues for Appellate
Review.
No ruling of the trial court or the Virginia
Workers’ Compensation Commission will be
considered as a basis for reversal unless an objection
was stated with reasonable certainty at the time of the
ruling, except for good cause shown or to enable the
Court of Appeals to attain the ends of justice. A mere
statement that the judgment or award is contrary to
the law and the evidence is not sufficient to preserve
the issue for appellate review.
Promulgated by Order dated Friday, April 30, 2010;
effective July 1, 2010.

